                        Getting the Job Done




 Social Security Administration
Office of the Inspector General
Semiannual Report to Congress
   April 1, 2003 – September 30, 2003
           Social Security Administration
           Office of the Inspector General
        Semiannual Report to Congress
              April 1, 2003 thru September 30, 2003




                                                                                                  Inspector General
                                                                                                   James G. Huse, Jr.

                                                                                              Deputy Inspector General

                                                                      Chief of Staff
                                                                   Immediate Office of
                                                                                                      Jane E. Vezeris
       Fiscal Year 2002 Results of OIG Efforts                        the Inspector
                                                                        General
The work of more than 11,000 employees of Offices of Inspector      Richard A. Rohde
General across Government produced impressive results during
FY 2002. Thousands of audits, investigations, and other reviews
offered recommendations that promote economy, efficiency, and
effectiveness, as well as prevent and detect fraud, waste, and          Counsel          Assistant Inspector     Assistant Inspector       Assistant Inspector
abuse in Federal programs and operations. These results include:         to the                General                 General                 General for
                                                                   Inspector General           for Audit          for Investigations      Executive Operations
   Potential savings of nearly $72 billion.
                                                                     Kathy A. Buller     Steven L. Schaeffer     Patrick P. O’Carroll     Stephanie J. Palmer
   Nearly 10,700 successful criminal prosecutions.

   Suspensions or debarments of over 7,600 individuals or
    businesses.

   Almost 2,200 civil or personnel actions.
                                                                     Deputy Counsel         Deputy Assistant       Deputy Assistant      Deputy Assistant Inspector
   More than 5,700 indictments and criminal informations.           to the Inspector    Inspector General for   Inspector General for     General for Executive
                                                                          General               Audit                Investigations             Operations

   Over 234,000 complaints processed.                                Glenn E. Sklar         Gale S. Stone         Steve W. Mason            Robert L. Meekins

   More than 90 testimonies before Congress.

Working in concert, the Inspector General community has
strengthened the integrity of Government and the security of our
homeland.
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



Message from the Inspector General
This year, we celebrate the 25th anniversary of the Inspector General Act,
which created independent Offices of Inspector General (OIG) in Federal
agencies. I would like to take this opportunity to congratulate the OIG
community, and reflect upon what we have achieved.

In fiscal year (FY) 2002 alone, the Federal OIG community’s efforts
accounted for nearly $72 billion in potential savings from their
agencies’ actions on current and prior recommendations and through
investigative recoveries. Further, the OIGs were instrumental in nearly
10,700 successful prosecutions, suspensions or debarments of over
7,600 individuals or businesses, and almost 2,200 civil or personnel
actions. The high quality of work in the OIG community is a reflection
of the great dedication and determination of its employees nationwide.
We take pride in what we do, and we get the job done.

This second Semiannual Report to the Congress for FY 2003 focuses
on our accomplishments for the period of April 1, 2003 through
September 30, 2003, and summarizes what we have done throughout
FY 2003. It defines our mission, describes our significant activities,
presents our assessment of the top management issues facing SSA,
and outlines our work on these challenges.

We are proud of our successes in combating fraud, waste and abuse in Social
Security Administration (SSA) programs and operations, and in providing
support across the Federal Government to our homeland security.

In FY 2003, our investigators reported over $356 million in investigative
accomplishments with nearly $55 million in SSA recoveries, restitution,
fines, settlements, and judgments and over $301 million in projected
savings. As part of our civil monetary penalty program, our attorneys also
reported nearly $1.25 million in penalties and assessments. And finally, our
auditors issued 97 reports with recommendations identifying $57 million
in questioned costs and over $1 billion in Federal funds could be put to
better use, including newly revised figures on questioned costs from a prior
audit.

No program touches more lives than Social Security. As stewards of this
sacred trust, we continuously strive to keep SSA and its programs efficient
and effective, and free from fraud, waste, and abuse.

Sincerely,




James G. Huse, Jr.
Inspector General
Semiannual Report to Congress   April 1, 2003 — September 30, 2003
April 1, 2003 — September 30, 2003                               SSA Office of the Inspector General



Contents
Message from the Inspector General .............................................. i

Introduction to Our Organization .................................................. 1

Significant Activities...................................................................... 4

      Homeland Security Efforts.......................................................... 4

      Cooperative Disability Investigations Program ............................... 7

      Civil Monetary Penalty Program..................................................10

      Investigative Data....................................................................13

Significant Management Issues Facing SSA................................. 17

      Issue 1: Improper Payments .....................................................18

      Issue 2: Management of the Disability Process.............................27

      Issue 3: SSN Integrity and Protection ........................................30

      Issue 4: Critical Infrastructure Protection and Systems Security .....37

      Issue 5: Budget and Performance Integration .............................43

      Issue 6: Service Delivery .........................................................48

Appendices.................................................................................. 55

      Appendix A .............................................................................57

      Appendix B .............................................................................59

      Appendix C .............................................................................67

      Appendix D .............................................................................69

      Appendix E .............................................................................71

      Appendix F..............................................................................73

      Appendix G .............................................................................83

      Appendix H .............................................................................85

      Appendix I ..............................................................................87
Semiannual Report to Congress                    April 1, 2003 — September 30, 2003




              Office of the Inspector General

           Mission Statement
           By conducting independent and objective audits,
           evaluations, and investigations, we improve the SSA
           programs and operations and protect them against
           fraud, waste, and abuse. We provide timely, useful,
           and reliable information and advice to Administration
           officials, Congress, and the public.


           Vision and Values
           We are agents of positive change striving for continuous
           improvement in SSA’s programs, operations, and
           management by proactively seeking new ways to
           prevent and deter fraud, waste, and abuse. We are
           committed to integrity and to achieving excellence by
           supporting an environment that encourages employee
           development and retention, and fosters diversity and
           innovation, while providing a valuable public service.
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



Introduction to Our Organization
The Office of the Inspector General (OIG) is comprised of five components:
Immediate Office of the Inspector General (IO), Office of the Counsel to
the Inspector General (OCIG), Office of Audit (OA), Office of Investigations
(OI), and Office of Executive Operations (OEO).


Immediate Office of the Inspector General
                       The IO provides the Inspector General (IG) and
                       Deputy IG with staff assistance on the full range of
                       their responsibilities and administers a comprehensive
                       Professional Responsibility and Quality Assurance
                       program. This program ensures the adequacy of OIG
                       compliance with its policies and procedures, internal
                       controls, and professional standards. In addition,
                       the IO oversees the Ombudsman program to provide
                       OIG employees with confidential and informal
assistance for resolving work-related conflicts, disputes, and grievances.
The program promotes fair and equitable treatment within OIG and strives
to improve the overall quality of work life for OIG employees. The IO also
directs reviews and takes actions to ensure the adequacy of OIG’s internal
controls in accordance with the Federal Managers’ Financial Integrity Act.


Office of the Counsel to the Inspector General
                OCIG provides independent authoritative legal advice,
                guidance, and counsel to the IG, and senior staff and
                their components on legal issues, regulatory strategy,
                and legislative proposals. OCIG also advises the IG on the
                existence, integration, and interpretation of emerging legal
                authorities that may affect the mission of OIG and/or the
                Agency. OCIG conducts research to ensure the legality of
                issues deliberated by OIG and reviews OIG work products
to make certain that they are legally sufficient. In addition, OCIG drafts
legal documents on behalf of OIG, which include regulatory comment
and legislation. Finally, OCIG is responsible for the implementation of the
Civil Monetary Penalty (CMP) program, which was delegated to the IG by
the Commissioner of Social Security. This implementation includes the
imposition of penalties and assessments and the settlement and litigation
of CMP cases.




                                                                                         page 1
         Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                Office of Audit
                             OA conducts and/or supervises comprehensive financial and
                             performance audits of SSA programs and operations and makes
                             recommendations to ensure that program objectives and
                             operational functions are achieved effectively and efficiently.
                             Financial audits, required by the Chief Financial Officer Act of
                             1990 (CFO Act), assess whether SSA’s financial statements
                             fairly present SSA’s financial position, results of operations,
                and cash flow. Performance audits review the economy, efficiency, and
                effectiveness of SSA’s programs and operations. OA also conducts short-
                term management and program evaluations and projects focused on issues
                of concern to SSA, Congress, and the general public.


                Office of Investigations
                               OI conducts and coordinates investigative activity related to
                               fraud, waste, abuse, and mismanagement in SSA programs
                               and operations. These activities include wrongdoing by
                               applicants, grantees and contractors, or by SSA employees
                               in the performance of their official duties. This office serves
                               as OIG liaison to the Department of Justice (DOJ) on all
                               matters relating to the investigations of SSA programs and
                               personnel, and reports to the Attorney General when OIG
                has reason to believe Federal criminal law has been violated. OI works
                with other investigative agencies and organizations on special projects and
                assignments. In support of its mission, OI carries out and maintains an
                internal quality assurance system.


                Office of Executive Operations
                                  OEO assists the IG with the formulation and execution
                                  of OIG’s budget and confers with the Office of the
                                  Commissioner, the Office of Management and Budget
                                  (OMB), and the Congress on budget matters. OEO
                                  conducts management analyses and establishes and
                                  coordinates general administrative management policies
                                  for OIG. This office serves as OIG liaison on personnel
                management and other administrative and management policies and
                practices, and equal employment opportunity and civil rights matters.
                This office is also responsible for the development, design, redesign,
                and maintenance of major automated systems throughout OIG and for
                the security of sensitive data relating to investigations, audits, and legal
                proceedings which is kept on OIG’s systems as well as the administration




page 2
April 1, 2003 — September 30, 2003               SSA Office of the Inspector General



of systems security plans for OIG. OEO is responsible for and coordinates
OIG’s strategic planning function and the development and implementation
of performance measures required by the Government Performance and
Results Act (GPRA). In addition, OEO administers programs for public
affairs, interagency activities, OIG reporting requirements, publications,
and congressional inquiries.




                                                                                       page 3
               Semiannual Report to Congress                       April 1, 2003 — September 30, 2003



                       Significant Activities
                       This has been another successful year for our organization. We have made
                       significant strides in helping SSA accomplish its service and stewardship
                       responsibilities. This report highlights our accomplishments and identifies
                       areas where improvement is necessary. Since SSA OIG was created in
                       1995, we have focused on several key issues in the fight against fraud,
                       waste, and abuse at SSA. We also play an integral role in meeting the
                       ongoing challenges of homeland security.

                       The following section details several of our most significant activities in this
                       reporting period, including our:

                         • Homeland security efforts

                         • Cooperative Disability Investigations Program

                         • Civil Monetary Penalty Program

                         • Audit activity

                         • Investigative data


                       Homeland Security Efforts
                       The SSN is no longer simply used to track workers’ earnings and pay social
                       insurance benefits. It has become recognized as a national identifier, a key
                                              to social, legal, and financial assimilation into our
                                              Nation. Protecting the SSN’s integrity is a critical part
                                              of our homeland security.

                                               Our ongoing involvement in homeland security is
                                               required by the role the SSN plays in establishing false
                                               identities and facilitating financial crimes that can be
                                               used to finance terrorism. Our central function in this
                                               area is to protect the integrity of the enumeration
                                               process and to ensure the accuracy of SSA’s records.

                                              Today people and organizations have more tools
                                              than ever for disrupting or sabotaging important
                                              operations. This dramatic growth in computer
                       interconnectivity carries with it risks that operations can be disrupted,
                       sensitive data can be compromised, and key processes can be interrupted.
                       Therefore, our role in assisting SSA to protect its critical infrastructure and
                       systems security is vitally important to homeland security.

                       With that in mind, we have several initiatives under way to improve
                       homeland security:




page 4   •   Significant Activities
April 1, 2003 — September 30, 2003                   SSA Office of the Inspector General



  • We work with congressional committees to address the threats to SSN
    integrity and advocate measures we believe can reduce those threats
    significantly.

  • We participate in a range of anti-terrorism task forces, including
                                                                                      Protecting
    operations at critical infrastructure sites conducted across the
    country.                                                                          SSN
  • We conduct audits and reports on areas where SSA can further                      integrity
    strengthen the integrity of the SSN.
                                                                                      is vital to

Working With Congress                                                                 homeland
In the 2 years since the terrible events of September 11, 2001, we have               security
provided Congress with our assessment of SSA’s business processes for
ensuring the SSN’s integrity. We base our assessment on our extensive
audit and investigative work. We continue to give Congress our evaluation
of suggested legislative changes and new techniques to improve SSN
verification and to decrease identity theft crimes.

In our testimony and other responses to Congress, we stressed
the importance of interagency data verification and data matching
agreements between Federal and State agencies. “While the SSN is
issued by SSA, the responsibility for protecting its integrity reaches
far beyond this Agency’s walls,” IG Huse told the Social Security
Subcommittee of the House Committee on Ways and Means at its
hearing on July 17. “While SSA has come very far and is willing to
do more, other Federal, State and local jurisdictions, as well as the
private sector must each do their part. With everyone’s participation,
we can protect the SSN and ultimately our homeland.”

Participating in Anti-terrorism Task Forces

Along with such agencies as DOJ, the Department of Homeland
Security (DHS), and the Federal Aviation Administration, our office
plays a key role as part of various national, regional, and local anti-terrorism
task forces. We remain active in the struggle against terrorism because of
our jurisdiction with respect to the integrity and use of SSNs and the related
records SSA maintains.

Since the first airport operation in Salt Lake City in December 2001, we have
participated in 78 airport security operations across the country, with 33 of
these occurring in this semiannual period. This effort has now expanded
beyond airport security to include other facilities which must remain secure,
such as aircraft and chemical plants and military bases. Working with Joint
Terrorism Task Forces and other Federal agencies under the aegis of the
Offices of United States Attorneys, we have helped to ensure that no


                                                                   Significant Activities   •   page 5
               Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                       employee who has misrepresented his or her SSN and identity has access to
                       areas the Nation must keep secure. The primary charges have been related
                       to SSN misuse, false statements, and DHS violations.

                       Conducting Audits

                       We have also performed several important audits to strengthen SSN
                       integrity, a vital component of homeland security. In one, for example, we
                       conducted a review in response to questions received from the Chairman of
                       the Senate Finance Committee to determine the status of SSA’s evaluation
                       of a pilot project to verify employee SSNs. Incorrect data can conceal SSN
                       misuse of all kinds. We determined that the pilot can assist SSA’s efforts
                       to improve the timeliness of employer corrections of information and the
                       accuracy of information for both the government and private sector use.
                       The pilot increased the annual wage reporting accuracy by about 10 percent.
                       Our report also noted that expanding the pilot could increase Federal and
                       State programs effectiveness by improving the accuracy of government
                       records while detecting fraud.

                       A limited distribution report noted that while SSA sends information to
                       DHS’s Bureau of Citizenship and Immigration Services (BCIS) (formerly the
                       Immigration and Naturalization Service) on non-citizens who are potentially
                       working illegally, BCIS does not routinely tell SSA when it changes a person’s
                       employment status from unauthorized to authorized. We recommended that
                       SSA and BCIS establish compatible data fields that will allow the agencies to
                       effectively match data records.

                       Another report in the area of homeland security evaluated SSA’s compliance
                       with the Federal Information Security Management Act of 2002 (FISMA).
                       SSA generally met FISMA requirements and has made improvements in
                       the past year, but can still strengthen its information security program. We
                       made several recommendations to the Agency.

                       Our audit work involving SSN integrity and protection is discussed at greater
                       length under Significant Management Issues Facing SSA.

                       The following cases illustrate our efforts against terrorism in this reporting
                       period:

                       Investigation: Document Ring Broken

                       Our Seattle and Atlanta Field Divisions and the DHS Bureau of Immigration
                       and Customs Enforcement (ICE) investigated a counterfeit document
                       operation in which a Korean man who was in the United States illegally
                       directed seven other Korean nationals. Our joint investigation disclosed
                       they were engaged in filing multiple false applications for Social Security
                       cards at SSA offices in Idaho, Oregon, and Washington. We determined


page 6   •   Significant Activities
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



that Korean organized crime figures in the Seattle region sold over
700 fraudulently issued cards to customers for an average of $2,000 per card
during 2001-2002. Agents seized hundreds of counterfeit passports, visas,
and other immigration forms, along with high-quality printing materials
and computer templates for producing American, Korean, Japanese, and
Canadian passports and identity cards. The ringleader was arrested, and
will be deported to Korea after serving a 5-year Federal sentence.

Investigation: Louisiana Facilities Secured

Our Dallas Field Division took part in a homeland security operation that
targeted undocumented aliens who were misusing SSNs to gain employment
at various chemical plants and oil refineries located in Louisiana. The joint
investigation, conducted with Federal, State, and local law enforcement
authorities, resulted in dozens of indictments and arrests to date. Several
of those who have already been sentenced have been incarcerated and/or
returned to DHS for deportation.

Investigation: Air Force Academy Safeguarded

Our Denver Field Division conducted a homeland security operation with
ICE, the Federal Protective Service, and U.S. Air Force Academy Security
Forces at the Air Force Academy in Colorado Springs, CO. Our investigators
determined that 44 workers employed by civilian contractors who had
access to the facility misused SSNs to obtain employment there. The multi-
agency investigation resulted in the arrest of 27 individuals for violations
involving false identification documents and SSN misuse.


Cooperative Disability Investigations Program
We manage the Cooperative Disability Investigations (CDI) program in
cooperation with SSA’s Office of Operations, Office of Disability Programs,
                                                                                     GAO says
and Office of Disability Determinations. Its mission is to obtain evidence
that can resolve questions of fraud in SSA’s disability programs.                    CDI is key

CDI units are composed of OI special agents and personnel from SSA’s                 among
Office of Operations, the States’ Disability Determination Services (DDS),
                                                                                     efforts to
and State or local law enforcement. They use their combined skills and
specialized knowledge to:                                                            head off

  • Provide the DDS with investigative evidence so it can make timely and            SSI fraud
    accurate disability eligibility determinations.
                                                                                     and abuse
  • Seek criminal and/or civil prosecution of applicants and beneficiaries
    and refer cases for consideration of CMPs and administrative sanctions
    as appropriate.



                                                                 Significant Activities   •   page 7
                 Semiannual Report to Congress                                        April 1, 2003 — September 30, 2003



                                • Identify, investigate, and seek prosecution of doctors, lawyers,
                                  interpreters, and other third parties who facilitate disability fraud.

                           The following table outlines recent CDI Program accomplishments.


                                Cooperative Disability Investigations Program Results
                                     April 1, 2003 through September 30, 2003


                                       Allegations Confirmed SSA Recoveries SSA Savings1                             Non-SSA
                        State           Received Fraud Cases & Restitution                                           Savings1
             Arizona                             54              20                    0       $1,158,923                $399,900
             California                         181              91            $16,732         $5,201,634              $4,210,520
             Florida                             84              55           $310,940         $3,365,734              $1,645,570
             Georgia                            142              99                    0       $6,245,388              $2,159,752
             Illinois                            26              36           $122,866         $2,954,600              $1,081,445
             Louisiana                           92              33                    0       $2,080,200                $703,167
             Massachusetts                       48              19                    0       $1,161,506                $533,157
             Missouri                            80              45            $16,586         $2,394,106              $1,334,190
             New Jersey                         113              21            $49,200         $1,344,732              $1,130,625
             New York                           106             124           $237,577         $7,354,114              $5,056,590
             Ohio                               244              47                    0       $3,923,058              $2,270,231
             Oregon                             130              84            $71,229         $4,871,560              $3,440,430
             Tennessee                           81              54            $16,552         $3,550,239              $1,922,756
             Texas2                             111              80              $5,000        $4,311,091              $2,276,797
             Virginia                            72              48            $72,552         $3,192,000              $1,489,376
             Washington                          80              51              $3,933        $3,179,594              $2,561,565
             Totals                          1,644             907           $923,167       $56,288,479             $32,216,271
             October 1, 2002 to              1,483             733           $879,235       $43,694,284             $27,007,357
             March 30, 2003
             FY 2003 GRAND                   3,127           1,640        $1,802,402        $99,982,763             $59,223,628
             TOTAL
             1
                 When a CDI investigation supports the cessation of an in-pay case, SSA program savings are calculated by multiplying
                 the actual monthly benefit times 60 months. Non-SSA savings are also projected over 60 months whenever another
                 governmental program withholds benefits as a result of CDI investigations, using estimated or actual benefit
                 amounts documented by the responsible agency.
             2
                 Texas has 2 units, one in Dallas and the other in Houston. The new unit in Denver began operation after the reporting
                 period ended.



                           In January 2003, the General Accounting Office (GAO) acknowledged the
                           CDI program by stating that we have “also increased the level of resources
                           and staff devoted to investigating SSI [Supplemental Security Income]
                           fraud and abuse. Key among these efforts is the formation of CDI teams in
                           [18] field locations. These teams are designed to identify fraud and abuse
                           before SSI benefits are approved and paid.”

                           Eighteen units have been opened in 17 States since FY 1998. We plan to
                           add CDI units on a year-to-year basis, depending on available funds.


page 8   •   Significant Activities
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



CDI Case Highlights
The following cases highlight the success of the CDI program.

Investigation: Million Dollar Fraud Scheme

Our New York CDI unit investigated a $1.3 million fraud operation that
was referred by the Brooklyn DDS, which identified a pattern of about a
dozen applications containing no work history and no treatment for alleged
mental disabilities. Our investigators observed the applicants performing
the activities they claimed they could not perform, such as leaving home,
shopping, and driving. Our investigators determined that several of these
SSI frauds had begun in the 1970s and 1980s. This investigation resulted
in 35 arrests, 24 felony convictions, and court-ordered restitutions,
forfeitures, and judgments totaling $535,000. Many of those convicted
were also incarcerated.

Investigation: Woman Caught Feigning Blindness

Our Chicago CDI unit investigated a woman collecting disability benefits
for blindness. She said she could not drive, dress herself, brush her hair,
raise her arms above her head, or walk more than a few steps without
extreme pain or having to use a wheelchair. An anonymous call indicated
she was working. Neighbors told our investigators she walked and drove on
a regular basis and was never seen using assistive devices. Her employer
indicated she had worked at a rehabilitation center as a training director for
over 2 years, creating and writing training manuals, instructing residents,
and coordinating center activities. Further, she drove over 40 miles daily to
work. The woman’s disability benefits were stopped.

Investigation: Mother-Son Fraud Halted

Our Houston CDI Unit investigated a Texas DDS referral involving a man
who was originally allowed Title II disability benefits on the basis of
mental retardation. Although school records showed that the man had
average intellectual functioning, psychological tests indicated that he was
mentally retarded. Our investigators determined that after age 18, at the
direction of his mother, he continued receiving benefits by feigning his
mental impairment. The man’s mother represented to SSA that her son
was disabled and could not perform everyday tasks without assistance.
She concealed that her son was an honors student who graduated cum
laude with a Bachelor’s degree. He is currently a schoolteacher. The DDS
terminated the man’s benefits. The man’s mother received probation, home
confinement with electronic monitoring, and 250 hours community service.
She was also ordered to pay restitution of $56,285 to SSA.




                                                                  Significant Activities   •   page 9
               Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                       Investigation: Head Injury Claim Denied
                       Our Baton Rouge CDI Unit investigated a man who received Title II disability
                       benefits since 1996 due to a head injury. The Louisiana DDS referred this
                       case for investigation because of high risk factors. During his continuing
                       disability review (CDR), the man said he had chronic pain, a psychotic
                       disorder, back and neck problems, headaches, and arthritis. His wife said he
                       needed assistance with all his daily activities and had not driven since 1996,
                       adding that he sometimes needed a wheelchair. Examiners reported the man
                       used a cane, could not identify his wife, exaggerated his responses, acted
                       mentally bizarre, and was uncooperative. Our investigators interviewed
                       neighbors, who had never seen the man using a cane or a wheelchair. A
                       driver’s license check revealed that the man recently renewed his license.
                       His disability claim was denied.

                       Investigation: Claimant’s Impairments Exaggerated

                       Our Tampa CDI Unit investigated a plumber who claimed he suffered from
                       depression and impaired vision so that he could no longer read or drive. He
                       also claimed he could not write or use plumbing tools because medications
                       caused tremors in his hands, and had stopped working in August 2002.
                       The Tampa DDS referred this case to CDI on suspicion that the man was
                       exaggerating his limitations. Our investigation revealed that the man was
                       still employed as a plumber and drove a company truck home at night.
                       His employer stated that the man received daily schedules and was given
                       subsequent service calls throughout each day. The employer noted that
                       the man was required to complete written estimates and he routinely used
                       power and hand tools. His disability claim was denied.


                       Civil Monetary Penalty Program
                       OCIG administers the CMP enforcement statutes under a delegation of
                       authority from SSA’s Commissioner, which allows OIG to impose CMPs
                       against violators of sections 1129 and 1140 of the Social Security Act.
    We have
                       Based on this delegation, we drafted and published regulations, trained
    imposed            legal and investigative staff, and established an infrastructure that included
                       placing attorneys in several OI Field Divisions to support this successful
   over $2.3
                       enforcement program. OI’s investigative work provides an important
    million in         contribution to these cases.

penalties and
                       False Statements Under Section 1129
assessments
                       Section 1129 prohibits making false statements or representations of
  since 1995           material facts in connection with obtaining or retaining benefits or payments
                       under Titles II, VIII, or XVI of the Act. After consultation with DOJ, we are
                       authorized to impose penalties of up to $5,000 for each false statement or


 page 10   •   Significant Activities
April 1, 2003 — September 30, 2003                    SSA Office of the Inspector General



representation, as well as an assessment of up to twice the amount of any
resulting overpayment.

Our enforcement efforts have been enhanced as our investigative
organization matures. Using our CMP enforcement tools, we have imposed
over $2.3 million in penalties and assessments since FY 1998 and Congress
continues to introduce new legislation that would expand CMP authority.

The following table and cases highlight our accomplishments for this
reporting period.



                       False Statements Under Section 1129 Results

                                                                  April 1, 2003 -
                                        October 1, 2002 -         September 30,
                                                                                            Totals
                                         March 31, 2003                2003


Cases Received                                   37                       41                    78

CMP Cases Initiated                              29                       30                    59

CMP Cases Closed                                 61                       72                    133

CMP Penalties and Assessments                $300,511                 $310,371              $610,882

Number of Hearings Requested                      6                        1                     7


CMP Case: Survivor Fraud Penalized

A woman serving as the representative payee for her disabled son not only
failed to report that her son went to live with his father, but she continuously
told SSA that her son was living with her. Her false restatements and
representations resulted in a $4,062 overpayment. The penalty we
imposed—$50,000 and an assessment in lieu of damages in the amount of
$8,124, twice the amount of the overpayment—was sustained.

CMP Case: Company Supports Fraud

An Oklahoma company agreed to pay one of its employees under his wife’s
name and SSN so that his earnings would not be reported to SSA and
therefore reduce or eliminate his SSI benefits. The Oklahoma City United
States Attorney’s Office prosecuted the employee. The company and its
Chief Executive Officer (CEO) were both subjects of a CMP for making
material false statements on tax forms submitted to SSA and for statements



                                                                   Significant Activities   •    page 11
              Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                      the CEO made to investigators regarding his knowledge of the fraud. Both
                      the company and the CEO were assessed penalties of $30,000.

                      Misleading Advertising Under Section 1140

                      Section 1140 prohibits the use of SSA’s program words, letters, symbols,
                      or emblems in advertisements or other communications in a manner
                      that falsely conveys SSA’s approval, endorsement, or authorization. Each
                      misleading communication is subject to a maximum $5,000 penalty.

                      In his February 27, 2003 testimony before the Subcommittee on Social
                      Security, IG Huse urged Congress to strengthen Section 1140 by:

                         • Requiring entities to clearly state that the product or service they offer
                           for a fee is available directly from SSA free of charge.

                         • Expanding the list of prohibited terms to include many of those that
                           seniors and others commonly associate with Federal benefits, especially
                           SSA programs and benefits.

                      These provisions are part of H.R. 743, which was passed by the House
                      of Representatives on April 2, and by the Senate Finance Committee on
                      September 17.

                      Our nationwide enforcement efforts in this area continue to send a clear
                      message to companies that deceive senior citizens under the name and
                      reputation of Social Security.

                      The following highlight our accomplishments for this reporting period.

                      CMP Case: Mailings Seek Seniors’ Personal Information

                      The National Federation of Retired Persons (NFRP), targeting senior citizens
                      through direct mail solicitations designed to generate insurance leads,
                      elicited personal information through mailings that used a likeness of the
                      U.S. Capitol and titles of SSA pamphlets, but omitted any reference to
                      insurance. After issuing several cease and desist orders, we proposed an
                      $83,569 penalty against the company. A spring 2002 hearing determined
                      that the NFRP violated section 1140, and NFRP appealed. The appeal
                      affirmed our proposed penalty of $83,569, and the Commissioner made
                      the Board’s decision final. The NFRP may appeal this final administrative
                      decision in a U.S. Court of Appeals.

                      CMP Case: Phony “Social Security Alert” Penalized

                      The United Seniors Association, Inc. (USA Inc.) mailed solicitations to senior
                      citizens in envelopes that included such terminology as “SOCIAL SECURITY
                      ALERT” in prominent red type. We proposed imposition of a $554,196



page 12   •   Significant Activities
April 1, 2003 — September 30, 2003                                     SSA Office of the Inspector General



CMP against USA Inc. After a full evidentiary hearing in April 2003, an
administrative law judge (ALJ) found that USA Inc. had “deliberately
contravened the law,” the proposed penalty was reasonable, and USA’s
envelopes created a “serious threat to the ability of the Social Security
Administration to communicate freely with the public.” USA Inc. has the
right to appeal the ALJ’s decision.



                             Misleading Advertising Under Section 1140 Results

                                                     October 1, 2002 -   April 1, 2003 -
                                                                                                               Totals
                                                      March 31, 2003   September 30, 2003

Complaints Received                                              33                       38                      71

New Cases Opened                                                  26                      14                      40

Cases Closed                                                      20                      16                      36

    No Violation                                                  14                       7                      21

    Voluntary Compliance                                           5                       8                      13

    Settlement Agreement
                                                            1/$35,000                      0                 1/$35,000
    (of cases/amount)

    Penalty/Court Action
                                                            1/$83,5691               1/$554,196              2/$637,7651
    (of cases/amount)

    Number of Hearings Requested                                   1                       1                      2

1
    Reflects reduction of a previously reported penalty upon appeal.




Investigative Data
In this reporting period, we received 34,998 allegations from various sources
cutting across SSA programs, as shown in these tables, which represent the
collective efforts of our OI Headquarters and Field Divisions, including our
Fraud Hotline. Our Fraud Hotline referrals to SSA offices resulted in the
identification of $2 million in overpayments that were posted to SSA records.
Our Fraud Hotline also identified $6 million in savings from referrals to SSA
that resulted in suspension or termination of benefits to individuals who
were no longer entitled or eligible to receive these benefits.




                                                                                    Significant Activities    •   page 13
                          Semiannual Report to Congress                                         April 1, 2003 — September 30, 2003




                                                              Funds Reported

                                                   October 1, 2002 -                                      April 1, 2003 -
                                                    March 31, 2003                                      September 30, 2003

                                          SSA Funds               Non-SSA Funds                   SSA Funds               Non-SSA Funds

Scheduled Recoveries                        $17,136,709                      $530,761               $14,378,341                   $1,764,473

Fines                                            $347,083                    $470,155                    $366,962               $35,533,554

Settlements/Judgments                            $120,788                    $150,500                    $169,753                 $2,566,000

Restitution                                 $13,091,240                 $22,307,892                   $9,263,194                $18,784,435

Estimated Savings                         $211,463,043                  $27,807,349                 $89,666,145                 $33,398,033

TOTALS                                  $242,158,863                  $51,266,657               $113,844,395                  $92,046,495

GRAND TOTALS                                          $293,425,520                                           $205,890,890

FY 2003 TOTAL                                                                     $499,316,410



                                                         Investigative Results


                                                  October 1, 2002 -                    April 1, 2003 -                        FY 2003
                                                   March 31, 2003                    September 30, 2003                     Grand Totals

Allegations Received                                               51,311                                  34,988                     86,299

Cases Opened                                                         9,170                                   9,950                    19,120

Cases Closed                                                         9,389                                   9,338                    18,727

Arrests/Indictments                                                  2,677                                   2,478                      5,155

Total Judicial Actions                                               5,655                                   3,812                      9,467

    Criminal Convictions                                              1,008                                   1,150                      2,158

    Civil/CMP                                                              35                                      38                        73

    Illegal Alien Apprehensions                                          274                                     364                        638

    Fugitive Felon Apprehensions                                     4,3381                                   2,266                      6,604

1
    This figure includes 18 additional apprehensions that resulted from field investigations outside the purview of the Fugitive Felon Program.




      page 14       •    Significant Activities
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General




                             Allegations Received by Category

                               October 1, 2002 -        April 1, 2003 -             FY 2003
                                March 31, 2003        September 30, 2003          Grand Totals

SSN                                       24,340                         7,620               31,960

SSI Disability                            14,175                       14,024                28,199

Disability Insurance                       7,456                         8,810               16,266

Old Age and Survivors
                                           3,364                         2,460                5,824
Insurance

Other                                      1,556                         1,534                3,090

SSI Aged                                     188                           243                  431

Employee                                     232                           297                  529

TOTALS                                    51,311                      34,988                 86,299




                               Allegations Received by Source

                               October 1, 2002 -        April 1, 2003 -             FY 2003
                                March 31, 2003        September 30, 2003          Grand Totals

 Private Citizens                         23,951                        8,651                32,602

 Anonymous                                 8,782                        8,253                17,035

 SSA Employees                             7,402                        8,495                15,897

 Law Enforcement                          10,120                        8,539                18,659

 Public Agencies                             323                          505                   828

 Beneficiaries                               726                          533                 1,259

 Other                                         7                            12                   19

 TOTALS                                  51,311                       34,988                 86,299




                                                                Significant Activities   •    page 15
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 16   •   Management Issues
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



Significant Management Issues Facing SSA
Every year we assess the most significant management issues facing SSA.
This process is valuable in focusing congressional attention on mission-
critical management problems and serves as a catalyst for resolving
significant issues across the Agency. Based on legislative mandates and our
audit and investigative work, we believe the most significant management
issues currently facing SSA are:

  1. Improper Payments

  2. Management of the Disability Process

  3. SSN Integrity and Protection

  4. Critical Infrastructure Protection and Systems Security

  5. Budget and Performance Integration

  6. Service Delivery

We have discussed these issues with SSA and acknowledge that the Agency
has made progress in these areas.

The following section discusses each of these critical management issues
facing SSA, as well as our related audit and investigative work for this
reporting period.




                                                                Management Issues •     page 17
               Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                      Issue 1: Improper Payments
                      SSA is responsible for issuing benefit payments under the Old-Age,
                      Survivors, and Disability Insurance (OASDI) and SSI programs. In FY 2002,
                      SSA issued $483 billion in benefit payments to 53.1 million beneficiaries.
                      Considering the volume and amount of payments the Agency makes each
                      month, even the slightest error in the overall process can result in millions
                      of dollars in overpayments or underpayments.

                      Improper payments are defined as payments that should not have been
     Even the         made or were made for incorrect amounts. Examples of improper payments
                      include inadvertent errors, payments for unsupported or inadequately
slightest error
                      supported claims, payments for services not rendered, or payments
    can result        to ineligible beneficiaries. The risk of improper payments increases in
                      programs with (1) a significant volume of transactions, (2) complex criteria
    in millions
                      for computing payments, and/or (3) an overemphasis on expediting
  of dollars in       payments. Since SSA is responsible for issuing timely benefit payments for
                      complex entitlement programs to over 50 million individuals, the Agency is
overpayments
                      at-risk of making significant improper payments.

                      The President and Congress have expressed interest in measuring the
                      universe of improper payments within the Government. Specifically, in
                      August 2001, OMB published the FY 2002 President’s Management Agenda
                      (PMA), which included a Government-wide initiative for improving financial
                      performance. In November 2002, the Improper Payments Information Act of
                      2002 was enacted, and OMB issued guidance in May 2003 on implementing
                      this new law.

                      Under this law, agencies that administer programs where the risk of
                      improper payments is significant must estimate their annual amount of
                      improper payments and report this information in their Performance and
                      Accountability Report for FYs ending on or after September 30, 2004. OMB
                      will use this information, while working with the agencies, to establish goals
                      for reducing erroneous payments for each program.

                      SSA and OIG have had ongoing discussions on improper payments—on such
                      issues as detected versus undetected improper payments and avoidable
                      overpayments versus unavoidable overpayments which are outside the
                      Agency’s control and a “cost of doing business.” In August 2003, OMB
                      issued specific guidance to SSA to only include avoidable overpayments
                      in the Agency’s improper payment estimate because these payments
                      could be reduced through changes in administrative actions. Unavoidable
                      overpayments that result from legal or policy requirements are not to be
                      included in SSA’s improper payment estimate.




 page 18   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



In September 2003, we published an Issue Paper on improper payments
in which we analyzed overpayments from SSA, other Federal agencies, and
private sector disability insurers. Based on this work, we plan to initiate
a comprehensive and statistically valid review in FY 2004 to quantify the
amount of undetected overpayments in SSA’s disability programs. We will
focus on the four diagnosis groups we believe are problematic, based on
prior audit and investigative work: (1) mental disorders other than mental
retardation; (2) diseases of the musculoskeletal system; (3) endocrine,
nutritional, and metabolic diseases; and (4) injuries. Additionally, the
preliminary results from an audit at the end of FY 2003 show significant
overpayments related to earnings by disabled beneficiaries went undetected
by SSA. This work and other studies—such as one to assess whether
overpayment waivers were appropriate—will be completed and/or initiated
in FY 2004 and beyond to address the issue of improper payments.

SSA has undertaken many projects to identify and improve areas where
it could do more to reduce improper payments and/or recover amounts
overpaid. Specifically, SSA has been working to improve its ability to prevent
overpayments and underpayments by obtaining beneficiary information
from independent sources sooner and/or using technology more effectively.
In this regard, SSA has initiated new computer matching agreements,
obtained on-line access to wage and income data, and implemented
improvements in its debt recovery program.

Working with SSA, we have made great strides in reducing benefit payments
to prisoners and SSI payments to fugitive felons, and these efforts continue.
However, improper payments, including those to deceased beneficiaries,
students, and individuals receiving State workers’ compensation (WC)
benefits, continue to diminish the Social Security trust fund.

In this reporting period, we conducted the following work in this area.

Audit Report: Pending WC: SSA Can Prevent Millions in Title II
Disability Overpayments

Our objective was to evaluate SSA’s management of Title II disability
cases with pending WC issues and assess the Agency’s efforts to prevent
overpayments.

The results of our review disclosed that SSA overpaid Title II disability
beneficiaries millions of dollars. Of the 178,900 WC cases aged 2 to
19 years, we sampled 100 cases and found that 30 percent had unreported
WC payments totaling almost $900,000. Of these cases, one-third
resulted in Title II disability overpayments totaling over $67,000. Based
on this sampling, we estimated SSA overpaid 17,890 beneficiaries almost
$121 million because of unreported WC payments. These may be



                                                                  Management Issues •     page 19
              Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                     conservative estimates because some State WC agencies purged older
                     cases, which could have resulted in additional overpayments.

                     If SSA does not take a proactive role in properly managing its pending WC
                     workload, it will continue to build a significant backlog of pending WC cases
                     and pay millions of dollars in Title II disability overpayments. Accordingly,
                     we encouraged SSA to implement an automated process expeditiously by
                     which the Agency can systemically and routinely follow up on cases with
                     pending WC issues. Therefore, we recommended that SSA:

                       • Initiate actions to recover the Title II disability overpayments identified,
                         where feasible.

                       • Take steps to reduce the backlog of Title II disability cases having
                         pending WC issues.

                       • Develop and implement an automated process to ensure the Agency
                         systematically and routinely follows up on new pending WC cases.

                       • Explore systems enhancements that would detect situations in which
                         WC is not applicable to prevent personnel from retrieving and analyzing
                         cases that no longer require development.

                     SSA generally agreed with all of our recommendations.

                     Management Advisory Report: SSA’s Workers’ Compensation Data
                     Match with the State of Texas

                     Our objective was to evaluate the results of SSA’s WC data match with the
                     State of Texas including:

                       • SSA’s methodology       for   evaluating   the   data   and   deriving   its
                         conclusions.

                       • The potential impact of unreported WC on SSA’s Disability Insurance
                         (DI) benefits and SSI payments in the State of Texas.

                       • The possible cost-effectiveness of matching States’ WC data against
                         SSA’s beneficiary/recipient records.

                       • The implications of potential over/underpayments nationwide.

                       • SSA’s decision on whether to perform additional data matches with
                         other States.

                     On August 15, 2000, SSA and the Texas Workers’ Compensation Commission
                     signed an agreement whereby the State would provide records containing
                     Texas WC information to SSA to match against its OASDI beneficiary and
                     SSI recipient records. The first file, received in September 2000, contained
                     691,286 records. However, 290,000 of the records were not usable as they



page 20   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



contained no dates. The match provided SSA with 1,298 cases with WC data
corresponding to DI beneficiaries. A second file received in November 2001
contained 974,414 records and another 4,919 DI cases with WC data were
identified. From both files SSA planned to review a total of 3,463 records
which did not have WC information on SSA’s records and 718 records where
amounts in SSA’s records differed from amounts in the Texas WC file. A
match against SSA’s SSI recipient records had not yet been performed.

As of October 2002, a cost benefit analysis (CBA) had not been completed
by SSA nor had representatives met to discuss the matching program
standards and methodology. Therefore, we recommended that SSA:

  • Identify a lead office for the Texas match project to oversee,
    consolidate, and report the work being done by the various SSA
    components involved in the project.

  • Establish time frames for the completion of work by each component
    and the lead office.

SSA agreed with the recommendations and designated the Office of
Disability and Income Security Programs as the lead office and expected to
complete the CBA for the Title II portion by the end of April 2003. It also
expected to complete the Title XVI match by the end of March 2003. Once
these actions are completed SSA will assess what next steps to take next.

We commend SSA for taking prompt action on the recommendations
and believe this will put the Agency in a better position to determine the
feasibility of pursuing similar projects with other States.

Audit Report: Use of State Bureaus of Vital Statistics Records to
Detect Unreported Marriages and Divorces

Prior audit work disclosed that computer matches with State Bureaus of Vital
Statistics (BVS) records may be useful in identifying OASDI beneficiaries
who had not reported their marriages or divorces in a timely manner. SSA
requested that we conduct a review to determine the effectiveness and
feasibility of these matches.

Using State BVS records from Georgia, Kansas, Oregon, and Vermont,
we found that, from January 1990 to December 1998, 700 beneficiaries
received $2.7 million in overpayments because they did not report their
marriages and 8 individuals received $49,599 in overpayments because
they did not report their divorces. To demonstrate the potential effectiveness
of matching electronic marriage records, we extrapolated the results of our
review to the 50 States plus Puerto Rico and the District of Columbia.

We estimated that if SSA had purchased State BVS records to identify
unreported marriages at the end of 1999 and each year thereafter, the


                                                                  Management Issues •     page 21
              Semiannual Report to Congress                    April 1, 2003 — September 30, 2003



                     Agency could have detected about $11.9 million in OASDI overpayments on
                     an annual basis at an estimated cost of $1.7 million, resulting in program
                     savings of about $10.2 million. We estimated that SSA could have realized
                     about $51.2 million in program savings over a 5-year period, including
                     about $17.3 million in the year of marriage and about $33.9 million in
                     subsequent years.

                     We recommended that SSA conduct a survey of State BVS agencies to
                     determine the cost of purchasing marriage records and encourage States
                     to convert their records into an electronic format. We also recommended
                     that SSA establish guidelines to monitor the cost-effectiveness of computer
                     matching, work with State BVS agencies to obtain matching agreements,
                     and purchase marriage records to identify beneficiaries who did not report
                     their marriages.

                     SSA agreed with the potential savings resulting from the use of State
                     BVS records to identify unreported marriages. Although SSA agreed with
                     the cost-effectiveness of computer matching, it was unable to implement
                     many of our recommendations because of a lack of resources. SSA agreed
                     to continue its efforts to promote the reengineering of State vital records
                     processes. SSA also stated that it had initiated corrective action on the
                     unreported marriages and divorces identified during our review.

                     We recognized the constraints that limited resources place on the
                     Agency. However, we continue to believe that periodic computer matches
                     are necessary to reduce the Agency’s vulnerability to individuals who
                     misrepresent their marital status to receive benefits to which they are not
                     entitled. Therefore, we are encouraging SSA to seek authority for additional
                     resources to strengthen program integrity and stewardship.

                     Audit Report: Follow-up Review of OASDI Benefits Paid to
                     Deceased Auxiliary Beneficiaries

                     Our objective was to determine whether SSA implemented the
                     recommendations in our June 2001 audit report, “OASDI Benefits Paid to
                     Deceased Auxiliary Beneficiaries.”

                     In our earlier review, we identified 5,033 beneficiaries who appeared to be
                     receiving OASDI benefits even though they had dates of death on SSA’s
                     Death Master File (DMF). We referred the 2,721 records we had not reviewed
                     to SSA for resolution of the discrepancies. We further recommended that
                     SSA:

                       • Periodically match its DMF against its auxiliary payment records to
                         identify records in which a date of death is posted on the DMF but for
                         which payment records show current benefit payments.




page 22   •   Management Issues
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



  • Remind staff to follow SSA’s procedures when processing death alerts
    to ensure all records requiring action are identified and corrected.

Our follow-up review found that generally SSA had implemented the
recommendations from our prior report. The Agency had:

  • Initiated a quarterly match between its DMF and Master Beneficiary
    Record (MBR).

  • Resolved 98 percent of the cases we asked SSA to review.

  • Reminded staff to follow procedures fully when processing death
    alerts.

However, we identified the following issues that require further attention.

  • SSA’s quarterly matches between the MBR and DMF did not identify
    2,069 cases where the auxiliary beneficiaries were receiving payments
    with dates of death on their Numidents.

  • SSA did not timely resolve all the auxiliary beneficiary cases identified
    from its quarterly MBR-DMF matching operation.

  • SSA did not refer all instances of possible fraud—where payments were
    actually made after death and the Agency was unable to recover the
    funds—to the OIG’s OI.

As a result of the three new issues identified, we made appropriate
recommendations to the Agency to ensure erroneous death information is
removed from living beneficiaries’ records, and payments are terminated
for those auxiliary beneficiaries who are actually deceased. SSA agreed to
implement our recommendations.

Audit Report: Follow-up on Prior Office of the Inspector General
Prisoner Audits

Our objective was to determine whether SSA implemented the
recommendations contained in our May 1996 report, “Effectiveness
in Obtaining Records to Identify Prisoners” and our June 1997 report,
“Effectiveness of the Social Security Administration’s Procedures to Process
Prisoner Information, Suspend Payments and Collect Overpayments.”

The results of our review revealed that SSA implemented the
21 recommendations contained in these prior audit reports. Specifically,
we found that SSA had active agreements to obtain prisoner data from
the 50 States, the District of Columbia, the Federal Bureau of Prisons
and over 3,000 county and local facilities. Additionally, SSA implemented
new systems to monitor compliance with prisoner agreements and track
and resolve prisoner cases that did not verify through SSA’s Enumeration



                                                                 Management Issues •     page 23
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                     Verification System. The Agency also used the additional tools made available
                     through new legislation to improve its efforts to stop Social Security benefit
                     payments to prisoners and to collect overpayments from prisoners.

                     We did not have any recommendations for SSA as a result of this audit.


                     Investigative Project: Payments Made to Deceased
                     Individuals
                     In conjunction with SSA, we have taken aggressive action to stop erroneous
                     payments to deceased individuals. This includes front-end detection of such
                     payments and controls to prevent them, as well as detailed investigations
                     to locate wrongdoers when the system breaks down. We are currently
                     conducting a national operation in this area.

                     Our numerous investigative successes in this reporting period include:

                     Investigation: Surviving Son Steals Checks and Identities

                     Our Philadelphia Field Division investigated a man who deposited his
                     stepmother’s Social Security checks into a bank account that he controlled
                     for over 3 years after her death. Our investigators also found that he stole
                     the identities of strangers by obtaining information from a co-conspirator
                     employed at a retirement community and a hospital. The man got credit
                     reports on these people and used their information to purchase several
                     vehicles. He was incarcerated and ordered to pay $39,863 restitution to
                     SSA and $215,714 to various financial institutions.


                     Investigative Project: Fugitive Felon Program
                     The Welfare Reform Act, Public Law (P.L.) 104-193, enacted on August
                     22, 1996, denies SSI for fugitive felons and for probation and parole
                     violators, and provides for the exchange of certain SSI information with law
                     enforcement agencies under specified conditions. Such fugitives are denied
                     Federal assistance and parallel aid is also provided to law enforcement for
                     their apprehension. Thus, in these cases the apprehension of such a person
                     who is fleeing either prosecution or punishment can be as important as a
                     new conviction in other kinds of cases.

                     The Fugitive Felon Program uses automated data matches to compare
                     warrant information from the National Crime Information Center, the
                     Federal Bureau of Investigation (FBI), the United States Marshals Service
                     (USMS) and State agencies with SSA’s SSI rolls. SSA currently has data
                     matching agreements with numerous States and police departments, and is
                     still pursuing such agreements with other States. We continue working with
                     SSA to further refine and enhance the automated process.



page 24   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



During this reporting period, we investigated 18,494 subjects and shared
their relevant data with the warrant-issuing law enforcement agencies. SSA
data contributed to the arrest of 2,234 fugitives of these subjects. Since the
program’s inception in August 1996, we have investigated 129,281 subjects
16,765 of which were apprehended with the help of our data.

Audit Report: Assessment of the SSI Fugitive Felon Program

Our objective was to quantify the actual savings achieved and determine
the final outcome for SSI recipients identified as fugitive felons.

Our review showed SSA realized savings to the SSI program by suspending
SSI payments to fugitives and recovering a portion of overpayments resulting
from fugitive ineligibility. However, we found that additional savings could
be realized through earlier detection of outstanding warrants and more
diligent efforts to recover payments incorrectly issued to fugitives.

We estimated the SSI payments issued to about 51,258 fugitives between
August 1996 and February 2003—plus the SSI payments that were withheld
while the warrants were outstanding—totaled $448.4 million. Based on our
review of 300 sample cases, we estimated that:

   SSA saved the SSI program $83.4 million between August 1996 and
    February 2003. This included $74.1 million in SSI payments that might
    otherwise have been paid had SSA not taken administrative action to
    suspend the monthly payments to fugitives, and $9.3 million in SSI
    overpayments recovered from fugitives.

   The Agency has the potential to save an additional $206.9 million
    through recovery of fugitive overpayments for months up to
    and including February 2003. This includes $98.3 million in SSI
    overpayments that were in active recovery plans, and $108.6 million
    in SSI overpayments for which SSA had not made recovery decisions.

   SSA did not save/recover $158.1 million in SSI payments issued
    to fugitives, despite their outstanding warrants. This included
    $20.3 million for which SSA granted repayment waivers or deemed
    uncollectible. It also included $125.9 million in SSI payments issued
    to recipients for months during which they were fugitives but SSA did
    not pursue recovery because the Agency applied its administrative
    finality rules. Under SSA’s application of its administrative finality
    rules for SSI, the time period SSA can assess an overpayment to a
    recipient is (a) 1 year for any reason, (b) 2 years for good cause, and
    (c) any time when fraud or similar fault is found. Finally, we identified
    $11.9 million—based on our audit—which SSA did not detect, but will
    not attempt to recover because of its administrative finality rules.



                                                                  Management Issues •     page 25
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                     Additionally, we estimated SSA saved $19.5 million by withholding the
                     continuing monthly SSI payments from fugitives who were subsequently
                     apprehended and incarcerated. We also found that the majority of these SSI
                     recipients, ineligible for payments because of their outstanding warrants,
                     were wanted for serious crimes—such as burglary, robbery and assault.

                     To improve SSA’s debt recovery performance and assist the Agency in
                     meeting its strategic objective to increase the amount/percentage of
                     collection agreements, we made several recommendations, which SSA
                     agreed to implement.

                     Examples of our work involving fugitive felons in this reporting period
                     include:

                     Investigation: “Most Wanted” Fugitive Arrested

                     Our New York Field Division investigated an SSI recipient featured on
                     the New York State Parole’s web site as one of its “Top 10” Most Wanted
                     Fugitives. Our investigation concluded with his arrest at a check cashing
                     facility located blocks from where his SSI checks were sent. A registered
                     sex offender, he was arrested for a parole violation with a robbery conviction
                     involving beating and robbing a woman while trying to steal her purse. He
                     was also convicted of sexual abuse involving a small child.

                     Investigation: Fugitive Bank Robber Captured

                     Our Los Angeles Field Division investigated a fugitive felon SSI recipient
                     who violated his probation following a conviction for robbing a bank. Our
                     investigators determined that the man had an extensive criminal history
                     which involved numerous violations for both petty theft and bank robbery.
                     He was taken back into custody without incident by our special agents and
                     United States Marshals Service deputies near the Social Security office in
                     Pomona, CA.




page 26   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



Issue 2: Management of the Disability Process
SSA administers the DI and SSI programs that provide benefits based on
disability. Most disability claims are initially processed through a network
of Social Security field offices (FO) and State DDSs. SSA representatives
in the FOs are responsible for obtaining applications for disability benefits
and verifying non-medical eligibility requirements, which may include age,
employment, marital status, or Social Security coverage information among             Managing
other factors. After initial processing, the FO sends the case to a DDS for
evaluation of disability.                                                             disability

The DDSs, which SSA fully reimburses, are State agencies responsible for              claims
developing medical evidence and rendering the determination of whether                involves a
the claimant is disabled or blind. After the DDS makes the disability
determination, it returns the case to the FO for appropriate action depending         number of
on whether the claim is allowed or denied. In FY 2003, over 2 million initial         complex
disability claims were processed, and the average processing time was 97
days.                                                                                 stages

Once SSA establishes an individual is eligible for disability benefits under
either the DI or SSI program, the Agency turns its efforts toward ensuring
the individual continues to receive benefits only as long as SSA’s eligibility
criteria are met. Disability benefits will not continue if any of the following
occur:

  • A CDR shows the individual no longer meets SSA’s disability criteria or
    has demonstrated medical improvement.

  • An individual returns to work and has income over SSA’s allowable
    amount or demonstrates the ability to engage in substantial gainful
    activity for a sustained period of time.

  • A child turns 18 years old and is not considered disabled under adult
    criteria.

  • Legislation or Federal regulations rescind a prior disabling condition
    from qualifying for benefits.

  • Other non-medical factors of eligibility are no longer met.

If an individual disagrees with DDS decisions on his/her claim or continuing
disability review, the claimant can then appeal to SSA’s Office of Hearings
and Appeals (OHA). The OHA is responsible for holding hearings and issuing
decisions in the Agency’s appeals process. OHA’s field structure consists
of 10 regional offices and 140 hearing offices. ALJs hold hearings and
issue decisions in hearing offices nationwide. In FY 2003, hearings offices
processed 571,928 cases, and the average processing time was 343 days.




                                                                   Management Issues •    page 27
                  Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                         Over the last several years, the Agency has tested improvements to the
                         disability claims process as a result of concerns about the timeliness and
                         quality of customer service. The disability improvements combine initiatives
                                             that have been tested and piloted and include all levels
                                             of eligibility determination—beginning with Agency
                                             FOs and going through the hearings and appeals
                                             processes. These initiatives did not result in significant
                                             improvements in the disability claims process, and in
                                             January 2003, GAO added the modernizing of Federal
                                             disability programs, including SSA’s, to its 2003 high-
                                             risk list.

                                             Following the testing of the disability process
                                             improvement initiatives, the Commissioner announced
                                             short-term decisions regarding the disability process
                                             which included: ending the requirements for the
                                             claimant conference in sites testing the prototype
                                             disability process, evaluating the elimination of the
                                             reconsideration level of the claims process nationwide,
                                             making additional improvements to the hearings process,
                                             and implementing the Electronic Disability Initiative
                         (eDib). According to SSA, eDib is expected to improve processing times,
                         reduce costs, and improve the Agency’s capacity to better handle growing
                         workloads. In September 2003, the Commissioner announced long-term
                         initiatives to address the Agency’s disability related challenges, which she
                         stated are predicated on the successful implementation of eDib.
     Fraud
                         Fraud is an inherent risk in SSA’s disability programs. Some unscrupulous
          is an
                         people view SSA’s disability benefits as money waiting to be taken. A key
   inherent              risk factor in the disability program is individuals who feign or exaggerate
                         symptoms to become eligible for disability benefits. Another key risk factor
     risk in
                         is the monitoring of medical improvements for disabled individuals to
      SSA’s              ensure those individuals who are no longer disabled are removed from the
                         disability roles.
  disability
                         SSA and OIG have taken an active, cooperative role in addressing the
 programs
                         integrity of the disability programs through the CDI program. The CDI
                         program’s mission is to obtain evidence that can resolve questions of
                         fraud in SSA’s disability programs. SSA’s Offices of Operations, Disability
                         Programs, and Disability Determinations, along with OIG, manage the CDI
                         program. There are 18 CDI units operating in 17 States. In FY 2003, the
                         CDI units saved SSA almost $100 million by identifying fraud and abuse
                         related to initial and continuing claims within the disability program.

                         We have had numerous investigative successes during this reporting period,
                         including:


page 28    •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



Investigation: Benefits Fraud Yields Incarceration
Our Atlanta Field Division investigated an anonymous tip that a man
receiving disability benefits was concealing work activity. Our investigators
determined the man was never entitled to SSA disability because he was
employed when he filed for benefits. After getting a second SSN under
a fictitious identity in 1993—in part to conceal numerous drunk driving
charges—he obtained a Commercial Driver’s License under that identity
and was hired as a truck driver beginning in December 1994. He also
provided false statements to SSA during CDRs. His attorney argued that
he was not employed from 1994 through 1996 and had simply lied about
his work experience on several job applications. However, our investigators
were able to show that he had worked in that period, though no payroll
records exist. He was incarcerated and ordered to pay SSA over $128,000
in restitution.

Investigation: Man Steals Son’s Identity

Our Philadelphia Field Division investigated a report from the Petersburg,
VA SSA office that a man was working under his son’s SSN while collecting
disability benefits. Our investigators determined that he was working using
both his own SSN and his son’s, concealing his employment from SSA. As a
result, he and his children received disability benefits to which they were not
entitled. He was incarcerated and ordered to pay restitution of $92,888.

Investigation: Coach Helps Fake Applications

Our Chicago CDI unit investigated a man who charged from $500 to $1,850
to assist 47 people in filing disability applications. He would accompany
them to the SSA office, complete their disability applications, and coach
applicants so they could fake their disabilities. Our investigators determined
that the man helped applicants exaggerate mental and physical disabilities
during examinations. Many used a cane and most listed the same attending
physician. The man received probation and was ordered to pay $19,896 in
restitution to SSA.




                                                                   Management Issues •    page 29
                 Semiannual Report to Congress                    April 1, 2003 — September 30, 2003



                        Issue 3: SSN Integrity and Protection
                        The SSN is the single most widely used identifier for Federal and State
                        Governments as well as the private sector. In FY 2002, SSA issued about
                        18 million original and replacement SSN cards, and SSA received
                        approximately $524 billion in employment taxes related to earnings under
                        issued SSNs. Protecting the SSN and properly posting the wages reported
SSA issued              under SSNs are critical to ensuring eligible individuals receive the full
                        retirement, survivor and/or disability benefits due them.
18 million
                        Unfortunately, the SSN is often misused, and identity theft is not just
Social
                        about individuals. While being the immediate victim of identity theft and
Security                SSN misuse can cause individuals years of difficulty, it also brings cost
                        to financial and commercial institutions, which is ultimately passed on to
cards in
                        consumers. Worse yet, SSN misuse can disguise a dangerous felon or a
FY 2002                 would-be terrorist as a law-abiding citizen. That national identifier can
                        provide a criminal the identification and seeming legitimacy he or she needs
                        to go about dishonest business, perhaps putting dozens, hundreds, or even
                        thousands of lives in jeopardy.

                        To ensure SSN integrity, SSA must focus on three stages of protection:

                          1. When the SSN card is issued

                          2. During the life of the SSN cardholder

                          3. Upon the SSN cardholder’s death.

                        SSA must employ effective front-end controls in its enumeration process.
                        Likewise, additional techniques, such as data mining, biometrics, and
                        enhanced systems controls are critical in the fight against SSN misuse.

                        To effectively combat SSN misuse, we believe SSA should:

                          • Establish a reasonable threshold for the number of replacement SSN
                            cards an individual may obtain during a year and over a lifetime.

                          • Expedite systems controls that would interrupt SSN assignment when
                            SSA mails multiple cards to common addresses or when parents claim
                            an improbably large number of children.

                          • Continue to address identified weaknesses within its information
                            security environment to better safeguard SSNs.

                          • Continue to educate SSA staff about counterfeit documents.

                        Furthermore, in the past we reported it is critical for SSA to independently
                        verify the authenticity of documents presented by SSN applicants. The
                        Agency has taken steps to address this issue, including the establishment



 page 30     •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



of a task force to address the integrity and protection of the SSN. One result
of the task force’s efforts includes SSA’s decision to stop assigning SSNs to
non-citizens without first verifying the authenticity of their documents. The
Agency also has tightened evidentiary requirements for SSN applicants.
SSA requires mandatory interviews for all applicants for original SSNs over
the age of 12 and requires evidence of identity for all children, regardless
of age. In addition, the Agency established a pilot center in Brooklyn, New
York that focuses exclusively on enumeration of citizens and non-citizens.

The integrity of the SSN is also related to SSA’s process for posting workers’
earnings. The proper posting of earnings ensures that eligible individuals
receive the full retirement, survivor and/or disability benefits due them.
If earnings information is reported incorrectly or not reported at all, SSA
cannot ensure all eligible individuals are receiving the correct payment
amounts. In addition, SSA’s disability programs under the DI and/or SSI
provisions depend on this earnings information to determine whether an
individual is eligible for benefits and the amount of the disability payment.

SSA spends scarce resources trying to correct the earnings data when
incorrect information is reported. The Earnings Suspense File (ESF) is the
Agency’s record of annual wage reports for which wage earners’ names and
SSNs fail to match SSA’s records. Between 1937 and 2000, the ESF grew
to represent about $374 billion in wages, which included approximately
236 million wage items with an invalid name and SSN combination. As of
July 2002, SSA had posted 9.6 million wage items to the ESF for Tax Year
(TY) 2000, representing about $49 billion in wages.

While SSA has limited control over the factors that cause the volume of
erroneous wage reports submitted each year, there are still areas where
the Agency can improve its processes. SSA can improve wage reporting
by educating employers on reporting criteria, identifying and resolving
employer reporting problems, and encouraging greater use of the Agency’s
SSN verification programs. SSA also needs to improve coordination with
other Federal agencies with separate, yet related, mandates. For example,
the Agency’s ability to improve wage reporting is related to the failure of the
Internal Revenue Service (IRS) to sanction employers for submittin
wage data. It is also related to the complicated employer procedur
uses to verify eligible employees.

SSA has taken steps over the past year to reduce the size and
growth of the ESF. For example, SSA is expanding its Employee
Verification Service to include an on-line service called the Social
Security Number Verification Service, which allows employers to
verify the names and SSNs of employees prior to reporting their wag
to SSA. The Agency has also modified its systems to help identify
number holder related to suspended items. Whereas previous internal


                                                                   Management Issues •    page 31
              Semiannual Report to Congress                   April 1, 2003 — September 30, 2003



                     edits used only the name and SSN related to the suspended wage, SSA
                     stated that the new processes would use information stored on the earnings
                     and benefits records. Moreover, the Agency has established a performance
                     goal to remove 30 million items from the ESF by 2005.

                     In this reporting period, we conducted the following reviews and
                     investigations in this area.

                     Audit Report: Profile of SSA’s Non-Work Alien File (Limited
                     Distribution)

                     Our objective was to analyze SSA’s Non-Work Alien (NWALIEN) file for
                     TY 2000 to describe individuals whose identities, SSN and earnings were
                     recorded on the file and to determine how long they have been working.

                     Each year, SSA informs BCIS of non-citizens who are potentially working
                     illegally. SSA sends BCIS information on individuals who have earnings
                     recorded under the SSN assigned for non-work purposes in the form of an
                     electronic data file, the NWALIEN file, 6 to 18 months after the earnings
                     take place.

                     Our analysis of the file found that for TY 2000, SSA recorded
                     872,138 reports of earnings for 574,461 non-citizens who had been
                     classified as not authorized to work by BCIS. The Agency also identified
                     $21.3 billion in earnings that were associated with these SSNs issued for
                     non-work purposes.

                     We then matched NWALIEN records with SSA’s earnings and employment
                     information and found that:

                       • Employment histories began as long as 38 years ago for some non-
                         work SSN records.

                       • The average earnings associated with unique non-work SSNs were
                         higher than the average for full time workers in the U.S. economy.

                       • In an estimated 5,080 instances, earnings were recorded on both
                         the Master Earnings File and the Earnings Suspense File for different
                         individuals using the same not-authorized-for-employment SSN,
                         suggesting possible illegal activity.

                       • Individuals having public responsibilities and positions of trust,
                         primarily current Federal and active duty military employees, including
                         SSA employees, are recorded on the unauthorized employment file.

                     A further review of the records found that some of these employees are now
                     authorized to work and there was no evidence that the Agency was notified
                     of the work status change.




page 32   •   Management Issues
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



SSA needs to obtain timely and accurate information from BCIS to ensure
the validity and usefulness of data recorded on the NWALIEN file, with an
emphasis on BCIS’ accuracy of work status data for each non-work SSN. We
also believe that SSA and BCIS need to establish compatible data fields that
will allow the agencies to effectively match data records.

Specifically we recommended that SSA:

  • Encourage BCIS to provide the data necessary to identify non-citizens
    who are allowed to work.

  • Match BCIS records to appropriate SSA records, and, where warranted,
    remove non-work status from SSA records.

  • Work with BCIS to determine what information would be most beneficial
    to meet organizational goals and how to establish compatibility between
    the files.

SSA agreed totally or in part with all three recommendations and will
encourage BCIS to make its records compatible with the NWALIEN file. The
Agency also advised us that once the compatibility occurs, it will modify
its systems to accept BCIS data. In addition, it will also work with BCIS
to determine what information would be beneficial to meet organizational
goals and how to establish compatibility between files. This report is not
available for distribution.

Congressional Response Report: Review of the SSN Feedback Pilot
Project

In the spring of 1999, SSA and the
Department of Health and Human
Services (HHS) Office of Child
Support and Enforcement (OCSE)
began a joint SSN Feedback Pilot
Project in Massachusetts and Illinois.
Its goal was to inform employers
promptly when they submit a new
hire report that includes an incorrect
name and SSN combination. The
Pilot lasted 1 year.

In August 2002, in response to questions received from the Chairman of the
Senate Finance Committee, we initiated a review to determine the status of
SSA’s evaluation of the joint Pilot with OCSE to verify employee SSNs and
evaluate whether the Pilot can assist SSA’s efforts to reduce the growth of
the Earnings Suspense File.




                                                                 Management Issues •     page 33
              Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                     In our report, we highlighted how the SSN Pilot feedback to employers improved
                     the timeliness of employer corrections as well as the accuracy of information
                     used by both the government and private sector. The SSA/OCSE report
                     estimated that employers were notified of name and SSN mismatches 12 to
                     18 months earlier than under the regular wage reporting process at SSA.
                     In addition, the report notes that the SSN Pilot increased the annual
                     wage reporting accuracy of the SSN Pilot employers by approximately 10
                     percent.

                     We also highlighted how the SSN Pilot provides employers early notification
                     of problems regarding wage data submissions and a reduced administrative
                     burden when verifying new hires. This early notification is particularly
                     important since SSA and IRS are collaborating to assess penalties against
                     employers who continue to submit wage reports with mismatched name/
                     SSN combinations. Employers that resolve these problems before their
                     annual wage reporting will be able to avoid IRS penalties.

                     Finally, we noted that expansion of the pilot can increase the efficiency and
                     effectiveness of Federal and State programs by:

                       • Reducing overpayments.

                       • Increasing child support collections.

                       • Improving tax identification.

                       • Increasing the collection rate on defaulted loans.

                       • Improving the accuracy of government records while detecting fraud.

                     We commended SSA and OCSE for their efforts regarding the SSN Pilot and
                     pointed out that the SSA/OCSE report, as well as our own observations,
                     indicates that expansion of the SSN Pilot may be a worthwhile investment
                     for SSA and OCSE. We also noted that this expansion should include
                     additional analysis to document the return on investment.

                     Examples of our investigative work in this reporting period include:

                     Investigation: Federal Employees Identities Stolen

                     Our Philadelphia Field Division, Postal Inspectors, and HHS OIG investigated
                     a former HHS contract employee who obtained the personal information of
                     at least 50 HHS employees. Our investigators determined that she and a
                     partner used that personal information to open credit accounts at various
                     stores. The former contract employee and her partner were incarcerated
                     and ordered to pay restitution of over $79,000.




page 34   •   Management Issues
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



Investigation: Identity Theft Group Sentenced
Our St. Louis Field Division, along with the Federal Bureau of Investigation
(FBI), U.S. Postal Inspection Service, and local police, investigated a man
who created false identities and misused SSNs to steal over $300,000
in goods and services in partnership with a mother and daughter. Our
investigators determined that they obtained a birth certificate belonging
to a deceased child, which the 2 women used to open a bank account.
The group wrote checks, backed by insufficient funds, for a motor home,
sporting equipment, a trailered boat, and then fled with these items to
Mexico. After being extradited, the man was sentenced to 30 years and
ordered to pay over $89,000 in restitution to various victims. The mother
received a suspended sentence, and both women were put on probation.

Investigation: Bank Fraud Ring Broken

Our Seattle Field Division investigated 6 people who obtained Washington
State identification documents and SSNs for over 50 false identities, which
they used to open bank accounts, commit bank fraud, and write worthless
checks to merchants. Our investigators determined that the co-conspirators
were responsible for more than $500,000 of fraud. The 6 were incarcerated
for as much as 10 years and ordered to pay restitution.

Investigation: Document Ring Incarcerated

Our Chicago Field Division, along with FBI and agents of the former INS
(since incorporated into DHS), investigated three men who were selling
fraudulent Social Security cards and INS documents. The investigators
made undercover purchases of counterfeit Social Security cards and INS
documents, as well as stolen vehicles and merchandise, from these men.
The three men paid bribes to an undercover INS agent who posed as a
corrupt adjudication officer. Investigators also set up a dummy travel
agency, equipped with audio and video recording devices. The conspirators
charged over 100 illegal immigrants $10,000 each to bring them to this
travel agency, where their customers then paid $5,000 to an undercover
INS agent to receive legal permanent residency status. The three men were
incarcerated for up to 6 years, and one was fined $150,000 and ordered to
forfeit $400,000.

Investigation: Bogus Clinician Jailed

Our Los Angeles Field Division helped the San Diego District Attorney’s
office investigate a man who used a stolen identity to work as a licensed
clinical social worker specializing in grief counseling at various medical
centers. In this case, which was documented on the television show “Crime
and Punishment” in June 2003, the man created false graduate degree


                                                                Management Issues •     page 35
              Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



                     certificates and employment credentials to gain these positions. As a bogus
                     social worker, he was in a position to do patients irreparable harm, and he
                     stole numerous patients’ personal information. He used these identities
                     to purchase vehicles and commit other frauds. He also collected benefits
                     from SSA for a mental disability, based on medical evaluations he filled
                     out himself under a fictitious doctor’s name, costing SSA approximately
                     $12,000. He was sentenced to 21 years and ordered to pay over $137,000
                     in restitution.

                     Investigation: Tax Refund Scheme Halted

                     Our New York Field Division investigated a crime ring that filed fraudulent
                     income tax refund returns using over 200 fraudulently obtained SSNs and
                     misused several hundred other SSNs. Our investigators determined that
                     the ring also filed false insurance claims for the deaths of non-existent
                     people. They also engaged in a telemarketing fraud involving telephone
                     calling cards, and set up a shell company that operated a complicated
                     credit card fraud. Although there was no financial loss to SSA, charges
                     included racketeering, money laundering, bank fraud, mail fraud, and
                     making fraudulent SSN applications. The ringleader, who was sentenced
                     to 27 years’ imprisonment, forfeiture of $4 million, and restitution of over
                     $2 million, even had his minor daughter complete fraudulent SSN
                     applications. Another defendant was sentenced to 12 years imprisonment,
                     forfeiture of almost $2 million, and another $2 million in restitution. To date,
                     6 of the other 12 defendants have been incarcerated and ordered to pay
                     restitution to various victims, and one remains a fugitive in Canada.




page 36   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



Issue 4: Critical Infrastructure Protection and
Systems Security
The Government has a major responsibility for public health and
safety. Dramatic and widespread harm would result should its systems
be compromised. Therefore, it is imperative that the Nation’s critical                          SSA’s
information infrastructure, which is essential to the operations of the                   challenge is
economy and Government, be protected. These systems include, but are
not limited to the following:                                                             to recognize

     • Telecommunications                                                                 and mitigate

     • Energy                                                                         system weak

     • Banking and finance                                                                      points

     • Transportation

     • Water systems

     • Facility and personnel security

     • Federal and private sector emergency services

Many of the Nation’s critical infrastructures have historically been physically
and logically separate systems that had little interdependence. Through
advances in information technology (IT) and improved efficiency, however,
these infrastructures have become increasingly automated
and interconnected. These same advances have created new
vulnerabilities to equipment failures, human error, weather and
other natural disasters, and physical cyber-attacks.

Addressing these vulnerabilities will require flexible, evolutionary
approaches that span the public and private sectors and protect
both domestic and international security. Presidential Decision
Directive (PDD) 63, issued in 1998, requires that Federal agencies
identify and protect their critical infrastructure and assets. The
information SSA needs to conduct its mission is one of its most
valuable assets. The Agency is depending on technology to meet
the challenges of increasing workloads with fewer resources.
A physically and technologically secure SSA information
infrastructure is a fundamental requirement.

Growth in computer interconnectivity brings a heightened risk of
disrupting or sabotaging critical operations, reading or copying
sensitive data, and tampering with critical processes. Those who wish to
disrupt or sabotage critical operations have more tools than ever.




                                                                   Management Issues •       page 37
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                     SSA’s information security challenge is to understand and mitigate
                     system vulnerabilities. At SSA, this means ensuring its critical information
                     infrastructure, such as access to the Internet and the networks, is secure.
                     By improving systems security and controls, SSA will be able to use current
                     and future technology more effectively to fulfill the public’s needs. The
                     public will not use electronic access to SSA services if it does not believe
                     those systems are secure.

                     SSA addresses critical information infrastructure and systems security in a
                     variety of ways. It created a Critical Infrastructure Protection work group
                     that continually works toward compliance with PDD 63. SSA has several
                     other components throughout the organization that handle systems security
                     including the newly created Office of Information Technology Security Policy
                     within the Office of the Chief Information Officer. SSA also routinely releases
                     security advisories to its employees and has hired outside contractors to
                     provide expertise in this area.

                     In this reporting period, we conducted the following work in this area.

                     Evaluation: Evaluation of SSA’s Compliance with the Federal
                     Information Security Management Act

                     Our objective was to determine if SSA’s overall security program and
                     practices complied with the requirements of FISMA for FY 2003.

                     FISMA replaces the Government Information Security Reform Act. It has
                     most of the same requirements including an Agency-wide information
                     security program, annual reviews of the security program performed by the
                     Agency and performed by the Inspector General, separately. OMB issues
                     questions annually to be answered concerning agencies’ compliance with
                     FISMA.

                     We determined that SSA generally met FISMA requirements and has made
                     improvements over the past year. However, there are still opportunities for
                     the Agency to strengthen its information security program. To ensure full
                     compliance with FISMA in the future, SSA needs to address the following
                     issues:

                       • Not all system weaknesses and deficiencies were identified and
                         reported and SSA does not have a plan of action and milestones
                         (POA&M) process that tracks all significant weaknesses as specified in
                         OMB’s FISMA guidance.

                       • Not all programs, systems, and subsystems are identified and reported
                         as specified in the FISMA guidance

                       • SSA does not have a complete, coordinated, and fully tested continuity
                         of operations plan (COOP).


page 38   •   Management Issues
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



  • The Agency’s Office of Chief Information Officer (OCIO) does not have
    sufficient resources to manage and monitor all IT security-related
    activities to ensure compliance with the Electronic Government (E-
    Government) Act of 2002.

  • SSA does not adequately track and monitor all information security
    training.

To fully comply with FISMA and other information security-related laws and
regulations in the future, we recommended SSA:

  • Continue to develop a system to identify, track and report the resolution
    of all significant system deficiencies that can be used to create and
    monitor POA&M.

  • Clearly document and identify all programs, systems, and subsystems
    to ensure they are reported and reviewed in compliance with FISMA.

  • Continue to develop and implement a complete and coordinated COOP
    for the Agency which is tested on a regular basis.

  • Provide sufficient resources to permit the OCIO to ensure SSA is in full
    compliance with the E-Government Act.

  • Continue to develop and implement an IT security training tracking and
    monitoring system.

Due to the tight time constraints of this audit, the Agency was not asked to
respond to our recommendations.

Audit Report: Effective Use of Encryption Technology to Protect
the Social Security Administration’s Information Assets (Limited
Distribution)

Our objective was to determine whether SSA is complying with established
guidance for the use of encryption in protecting the transmission and
storage of its sensitive information. SSA’s distributed data processing
environment requires it to store sensitive information and transmit it
over telecommunications lines. Potentially, unauthorized individuals could
intercept and monitor these transmissions, compromising the confidentiality
of the information they contain if it is not adequately protected.

Encryption is the process of translating data into an encoded format,
thereby rendering data unintelligible to unauthorized users and helping to
protect the integrity of transmitted or stored data. SSA’s evolving security
structure and increasing emphasis on networked applications provide
opportunities to improve the protection of its information assets through
encryption. The Agency already uses encryption for this purpose in a
number of applications.


                                                                 Management Issues •     page 39
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                     Our review found that SSA could strengthen its information assets by
                     having formalized encryption policy and procedures applied consistently
                     throughout the Agency for applications housing sensitive information.

                     We recommended SSA centralize encryption monitoring and control
                     functions within its evolving security structure to ensure consistent matching
                     of encryption technology to risk throughout the Agency. The Agency
                     disagreed with this recommendation, believing that its current structure
                     and guidance is sufficient. We believe, however, that our recommendation
                     will be fully addressed when the Agency issues its revised encryption
                     policy. Our recommendation is consistent with the Agency’s implemented
                     organizational changes and planned policy changes.

                     We also recommended SSA develop a comprehensive policy which identifies
                     the roles, functions, and responsibilities of individuals involved in the
                     encryption process. This policy would also require that responsible staff
                     members certify that the encryption process conforms to the provisions
                     contained within the policy. SSA partially agreed with this recommendation.
                     It is developing a more comprehensive encryption policy, but we continue
                     to be concerned that it has not developed a plan to enforce the new policy
                     and ensure it is consistently applied throughout the organization.

                     We further recommended SSA develop a risk-based approach or set
                     of procedures to be applied to current and all new Agency information
                     resources when matching the risks they present with appropriate encryption.
                     Specifically, the approach would use common criteria to determine the level
                     of sensitivity of the information processed or stored by applications, portable
                     devices, and other information resources. The sensitivity would be the basis
                     used to apply an adequate level of cryptographic protection. SSA fully agreed
                     with this recommendation. This report is not available for distribution.

                     Management Advisory Report: President’s Council on Integrity and
                     Efficiency Review of Critical Infrastructure Protection Program—
                     Cyber-based Infrastructure (Limited Distribution)

                     Our objective was to determine the adequacy of SSA’s Critical Infrastructure
                     Protection (CIP) Program for its cyber assets in the context of PDD 63. We
                     reviewed:

                       • Risk mitigation

                       • Emergency management actions

                       • Interagency coordination efforts

                       • Resource and organization requirements

                       • Recruitment, education and security awareness.



page 40   •   Management Issues
April 1, 2003 — September 30, 2003                    SSA Office of the Inspector General



PDD 63 calls for the national effort to assure the security of the Nation’s
critical infrastructures. In 1999, SSA voluntarily took a lead in implementing
PDD 63 and began a CIP initiative.

This audit is the second phase of a four-phase audit that reviewed the
adequacy of agencies’ implementation of activities for protecting critical
cyber-based infrastructures. The general purpose of the four-phase audit is
to determine Federal agencies’ compliance with PDD 63.

During our review, we found SSA needs to:

  • Include additional information in its CIP plan.

  • Update its CIP plan to accurately reflect the security programs
    initiated.

  • Develop mitigation plans for vulnerability assessments that do not
    have established plans.

  • Continue its efforts to track and remedy recommendations found in the
    vulnerability assessments of its critical assets.

  • Complete its interdependencies with other Federal agencies.

To address our findings, we recommended SSA:

  • Update CIP plan to accurately reflect the cyber-based security programs
    it has initiated and that were noted in SSA’s FY 2002 Government
    Information Security Reform Act report.

  • Develop training goals for the CIP plan to ensure that the Agency has
    the personnel and skills necessary to implement a sound infrastructure
    protection program.

  • Develop mitigation reports for all critical assets that track vulnerability
    assessment findings; monitor corrective actions planned; and
    document resolutions implemented.

  • Continue to track and implement recommendations for vulnerability
    assessments with established relative mitigation plans for its critical
    assets.

  • Continue to identify interdependencies with other Federal agencies
    for its cyber-based assets as defined in Project Matrix, which was
    established under the authority of PDD 63 to assist Federal agencies
    in identifying infrastructure dependencies and interdependencies that
    are required for them to fulfill their responsibilities of national security,
    economic stability, and public health and safety.

SSA agreed with all of our recommendations and is implementing the
recommended changes. This report is not available for distribution.


                                                                    Management Issues •     page 41
              Semiannual Report to Congress                   April 1, 2003 — September 30, 2003



                     The following case is an example of some of the work we do to protect
                     critical infrastructure protection and systems security:

                     Investigation: Systems Violation Halted

                     Our Chicago Field Division conducted an investigation when SSA systems
                     security was alerted because an SSA system was issuing payments into
                     the same bank account that was being used for direct depositing an SSA
                     employee’s pay. Our investigators determined that the employee diverted
                     two back payments for two different beneficiaries into her personal bank
                     account. An audit of her systems access revealed that she had also diverted
                     $9,000 to her own account in January 2001. She resigned her SSA position,
                     was given probation and ordered to pay restitution of $11,299 to SSA.




page 42   •   Management Issues
April 1, 2003 — September 30, 2003                    SSA Office of the Inspector General



Issue 5: Budget and Performance Integration
This area encompasses SSA’s efforts to provide timely, useful and reliable
data to assist internal and external decisionmakers in effectively managing
Agency programs, as well as both evaluating performance and ensuring the
validity and reliability of performance, budgeting, and financial data.
                                                                                        The integrity
To effectively meet its mission, manage its programs, and report on its
performance, SSA needs sound performance and financial data. Congress,
                                                                                              of SSA’s
other external interested parties, and the general public also want sound                    programs
data to monitor and evaluate SSA’s performance. SSA relies primarily on
internally generated data to manage the information it uses to administer
                                                                                            depends on
its programs and report to Congress and the public. The necessity for good             the reliability
internal data Governmentwide has resulted in the passage of several laws
and regulations to make Government more accountable. The CFO Act,
                                                                                       and quality of
the Government Management Reform Act of 1994, and the Government                            SSA’s data
Performance and Results Act (GPRA) were passed to create an environment
of greater accountability within Federal agencies.

In accordance with GPRA, SSA has set forth its mission and strategic goals in
5-year strategic plans, established yearly targets in its annual performance
plans, and reported on its performance in its annual performance reports.
Each year, we conduct audits to assess the reliability of SSA’s performance
data and evaluate the extent to which SSA’s performance plan describes its
planned and actual performance meaningfully.

In addition to performance audits, we perform and monitor audits
of SSA’s financial statements and other financial-related audits of
Agency operations. Our work includes comprehensive technical
and administrative oversight of the annual audit of Agency financial
statements, performed by an independent public accountant. We
also perform reviews of the quality of single audits conducted by
State auditors and public accounting firms. Additionally, we conduct
administrative cost audits of State DDSs, which assist SSA with its
disability workload. This body of work helps assess the validity and
reliability of the financial data the Agency relies on to manage its
programs and meet its mission.

The integrity of SSA’s programs and those that rely on Agency information
depend on the reliability and quality of SSA data. External data and data
exchanges are critical to Agency programs and are the focus of many of our
audits. Therefore, it is imperative that SSA’s data be reliable.

Considering the critical role of the underlying data in all of SSA’s performance,
financial, and data-sharing activities, it is crucial that the Agency have clear
processes in place to ensure the reliability and integrity of its data.



                                                                     Management Issues •      page 43
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



                     In this reporting period, we conducted the following work in this area.

                     Audit Reports: Disability Determinations Services Administrative
                     Costs

                     Disability determinations under SSA’s DI and SSI programs are performed
                     by DDSs according to Federal regulations. The DI program provides benefits
                     to wage earners and their families in the event the wage earner becomes
                     disabled. The SSI program is a nationally uniform program that provides
                     income to financially needy individuals who are aged, blind and/or disabled.
                     In accordance with Federal regulations, the DDS in each State performs
                     disability determinations of claimants’ medical eligibility. SSA reimburses
                     the DDS 100 percent for allowable expenditures.

                     There are 52 DDSs located in the 50 States, the District of Columbia and
                     Puerto Rico. There are two DDS offices in South Carolina, one of which only
                     administers the visually impaired program. SSA employees located in Guam
                     and the Virgin Islands make disability determinations in those locations.

                     In FY 2003, we performed 7 DDS administrative cost audits. The objectives
                     of these audits were to evaluate internal controls over the accounting and
                     reporting of administrative costs, to determine whether costs claimed were
                     allowable, and funds were properly drawn. The audit reports were for the
                     States of California, Florida, Hawaii, Illinois, Kentucky, New York, and
                     Washington. Our findings or recommendations relate to:

                       • Ineffective cash management.

                       • Incorrect indirect cost allocations.

                       • Overstated disbursements and unliquidated obligations.

                       • Excessive consultative examination payments.

                       • Unsupported other non-personnel costs.

                       • Internal control weaknesses involving accounting for and reporting of
                         administrative costs.

                     In total, we reported $11 million in questioned costs and $10 million in
                     funds put to better use. We made most of our recommendations to comply
                     with Federal regulations, as well as SSA policies and procedures.

                     Audit Report: Assessment of SSA’s Performance Measures

                     Our objective was to determine whether the SSA’s key programs and
                     activities critical to achieving its four strategic goals were addressed by its
                     Fiscal Year 2002 performance indicators, and, if so, whether those indicators
                     were objective, understandable, and outcome-based.



page 44   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



We found that SSA made great strides in meeting the objectives of GPRA
and has shown continued refinements of its performance indicators from
year to year. While SSA has improved the quality of its performance
indicators over time, further refinements would create better indicators. We
evaluated SSA’s performance indicators to determine whether they met the
following three criteria.

  • Objective—The performance indicator should be measurable, reliable,
    and verifiable with quantifiable goals.

  • Understandable—The performance indicator should be well-defined
    and clearly stated.

  • Outcome-based—The performance indicator should identify and
    measure the intended results, effects, or impact of the program and its
    goals.

SSA has 11 key programs and activities that are critical to delivery of
its day-to-day services and achievement of its 4 strategic goals and has
performance indicators to measure all of these key areas. We found that
the Agency’s performance indicators were objective in all 11 key areas,
understandable in 10 of 11 key areas, and partially outcome-based in
10 key areas and fully outcome-based in 1 key area. While we do not expect
every performance indicator to be outcome-based, the outcomes of key
programs and activities should be measured. Without a balanced set of
indicators that fully measures key outcomes, SSA’s performance reporting
will not completely demonstrate whether its key programs and activities
accomplish the intended results.

Many of SSA’s FY 2002 indicators focused on outputs or numerical
workloads—the number of claims processed, telephone calls answered,
clients served, SSNs issued, etc. Measuring outputs may help demonstrate
whether the Agency is complying with congressional mandates or be
useful for internal budgeting purposes. However, such outputs do not state
results, such as a program or activity’s accuracy, timeliness, effectiveness,
efficiency, level of customer satisfaction, and/or overall impact. Without
these types of indicators, it is difficult to judge the program or activities’
performance.

We offered the Agency recommendations, each of them dealing with the
refinement of a specific performance indicator. SSA took our suggestions
under consideration and stated that it believed it met the intent of GPRA
in developing high-level, representative performance indicators—including
outcome-based indicators for its major programs. While we agreed a
balanced set of measures can include both output and outcome measures,
we encouraged SSA to develop additional outcome-based measures—when



                                                                  Management Issues •     page 45
              Semiannual Report to Congress                    April 1, 2003 — September 30, 2003



                     such measures would provide a better measure of the Agency’s ability to
                     meet its goals.

                     Audit Report: Summary of the OIG’s Reviews of SSA’s Performance
                     Data

                     Our objectives were to summarize the results of our previous reviews of SSA’s
                     performance data and indicators, and to identify common issues related to
                     them. This report summarized the major findings and recommendations
                     contained in 34 OIG reports related to the reliability of SSA’s performance
                     data and indicators.

                     Between FYs 1998 and 2002, we audited 53 of SSA’s performance indicators
                     and found 37 of the indicators (70 percent) were supported by reliable
                     data, and 5 indicators (9 percent) were based on data that were unreliable.
                     We found the data to be unreliable because of their incompleteness or
                     weaknesses in the controls used to collect, analyze or report the data. We
                     were unable to issue an opinion on 11 indicators (21 percent) because of
                     limitations on, or the unavailability of, data.

                     We have offered many recommendations in our reviews to help improve SSA’s
                     performance measurement processes. The Agency has taken significant
                     action to implement many of our suggested changes. Over the last few
                     years, SSA has disclosed data limitations, changed performance indicators,
                     and improved data collection systems in response to our recommendations.
                     However, SSA still needs to implement some outstanding recommendations
                     that will help improve its performance measurement processes. SSA
                     especially needs to address our recommendations to improve the data used
                     to support those indicators we could not review or found to be unreliable.

                     We concluded that SSA needed to continue its efforts toward documenting
                     all performance measurement processes, ensuring its performance data
                     are complete, and implementing adequate internal controls over its data
                     systems and processes.

                     We recommended that SSA implement all outstanding recommendations
                     needed to produce reliable performance data and improve SSA’s
                     performance measurement processes. The Agency partially agreed with
                     this recommendation, stating that SSA had implemented some of the
                     recommendations that we still listed as open recommendations. We
                     continue to disagree on the status of some recommendations.

                     We also recommended that SSA ensure process documentation and internal
                     controls over the collection, processing, and reporting of data are complete
                     and adequate for any new indicators established in the future. SSA stated
                     that it already conducted the activities called for in this recommendation.
                     We noted that our audit work had documented multiple instances in which


page 46   •   Management Issues
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



SSA did not have adequate documentation of, and/or internal controls over
the collection, processing, and reporting of its performance processes and
data. We appreciated the Agency’s efforts to ensure such documentation
and controls are in place for new indicators established in the future.

Audit Report: Reliability of SSA’s Performance Data

During FY 2003, we released eight audit reports with the objective
of determining the reliability of the performance data SSA
measure its program performance. These reports also assesse
the appropriateness of the performance indicators that were
supported by the performance data reviewed.

The eight reports released were:

  • Performance Indicator      Audit:   Appeals   Council   (Limited
    Distribution).

  • Performance Indicator Audit: Electronic Access.

  • Performance Indicator Audit: Paperless/Electronic Processing.

  • Performance Indicator Audit: Customer Satisfaction.

  • Performance Indicator Audit: Wage Reporting.

  • Performance Indicator Audit: Post-entitlement Automation Rate.

  • Performance Indicator Audit: Enumeration.

  • Performance Indicator Audit: Payment Accuracy.

Six of the reports concluded that the data used to measure performance
were reliable. We found that data used to measure the Appeals Council
processing time and efficiency and the data used to measure the enumeration
process were unreliable. Because of system security concerns, the Appeals
Council report was released with a limited distribution, which prevents us
from discussing specific details in this report. However, the Agency reported
that it has since discontinued use of the Appeals Council performance
indicator. In regards to the enumeration audit, we found an over 16 percent
error rate in the data used to measure this process. The inaccurate data
demonstrated that the management controls for data entry into the system
used to measure the enumeration process were not operating effectively.




                                                                 Management Issues •     page 47
                 Semiannual Report to Congress                    April 1, 2003 — September 30, 2003



                        Issue 6: Service Delivery
                        The delivery of service to the American people poses a significant
                        challenge that SSA is compelled to address. The Agency’s goal of “service”
                        encompasses traditional and electronic services to applicants for benefits,
                        beneficiaries and the general public. It also includes services to and from
We must                 States, other agencies, third parties, employers, and other organizations
                        including financial institutions and medical providers. This goal supports
ensure the
                        the delivery of “citizen-centered” services and use of “E-Government,” and
quality of              therefore affords SSA opportunities to advance these levels of service. Given
                        the complexity of Agency programs, the billions of dollars in payments at
services
                        stake, and the millions of citizens who rely on SSA, we must ensure that
provided to             quality, timely, and appropriate services are consistently provided to the
                        public-at-large. This area consists of E-Government, the representative
the public-
                        payee process, and human capital.
at-large
                        E-Government Challenges

                        The PMA also calls for improved service delivery through the use of E-
                        Government in creating more cost-effective and efficient ways to provide
                        service to citizens. The increased use of E-Government will be essential to
                        help address the Agency’s expected future loss of institutional knowledge
                        accompanied by the increased services expected with the aging of the
                        baby-boom generation. Future service delivery challenges include providing
                        electronic services over the Internet and telephone, 24 hours a day,
                        7 days a week. It will be the norm for business transactions to be processed
                        electronically.

                        Within the next five years, the Agency expects to provide cost-effective E-
                        Government services to citizens, businesses and other government agencies
                        that will give them the ability to easily and securely transact most of their
                        business with SSA electronically. The Agency recently began allowing the
                        public to file DI claims through the Internet to help achieve its service
                        delivery goals. SSA expects to begin a nation-wide roll-out of its Electronic
                        Disability System in 2004. There are always risks involved in conducting
                        electronic commerce, despite Agency efforts to identify and mitigate them.
                        The Agency will have to keep privacy and security concerns at the forefront
                        of its planning efforts.

                        Representative Payee Challenges

                        A specific challenge in this area is maintaining the integrity of the
                        representative payee process. When SSA determines a beneficiary cannot
                        manage his/her benefits, SSA selects a representative payee, who must
                        use the payments for the beneficiary’s benefit. There are about 5.3 million



  page 48    •   Management Issues
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



representative payees who manage benefit payments for 6.7 million
beneficiaries. While representative payees provide a valuable service for
beneficiaries, SSA must provide appropriate safeguards to ensure they
meet their responsibilities to the beneficiaries they serve.

Since FY 2001, we have completed numerous audits of representative
payees. Our audits identified:

  • Deficiencies with the financial management of, and accounting for,
    benefit receipts and disbursements.

  • Vulnerabilities in the safeguarding of beneficiary payments.

  • Poor monitoring and reporting to SSA of changes in beneficiary
    circumstances.

  • Inappropriate handling of beneficiary-conserved funds.

  • Improper charging of fees.

In this reporting period, we conducted the following work in this area.

Audit Report: SSA’s Site Reviews of Representative Payees

We continue to identify problems with SSA’s oversight of representative
payees. For example, in April 2003, we issued a report on SSA’s site review
of representative payees. The purposes of SSA’s site reviews are to educate
representative payees about Social Security matters, take a close look at
how beneficiaries’ funds are managed, assess the representative payee’s
record keeping, interview beneficiaries, and to detect and deter fraud and
abuse.

We found SSA’s site review methodology did not provide adequate guidance
for performing these reviews and SSA review teams did not obtain or
maintain sufficient and reliable documentation to support the conclusions
and recommendations made during the onsite reviews. In addition,
completed onsite reviews did not always comply with SSA’s onsite review
requirements and SSA review teams did not always follow-up with the
representative payee to verify if corrective actions were taken.

Audits of Representative Payees

During the reporting period, we completed audits of the following
representative payees:

  • Atlantis Rehab and Nursing Center.

  • Key Point Health Services, Inc.

  • Sierra Regional Center.



                                                                Management Issues •     page 49
              Semiannual Report to Congress                   April 1, 2003 — September 30, 2003



                       • Community Counseling Centers of Chicago.

                       • Cottonwood, Inc. (Limited Distribution).

                       • The Connecticut Mental Health Center, Money Management Program.

                     The objectives of these audits were to determine whether representative
                     payees:

                       1. Had effective safeguards over the receipt and disbursement of Social
                          Security benefits.

                       2. Ensure Social Security benefits are used and accounted for in
                          accordance with SSA policies and procedures.

                     We determined that four representative payees generally had effective
                     safeguards over the receipt and disbursement of benefit payments and
                     ensured the payments were used and accounted for in accordance with
                     SSA’s policies and procedures. However, two representative payees did not
                     meet these objectives. We identified the following deficiencies:

                       • Two representative payees did not          have    adequate   supporting
                         documentation for all expenditures.

                       • One representative payee had not established an accounting system
                         to track $705,388 in annual benefits received, disbursed, and/or
                         conserved.

                       • Two representative payees had not established a separate bank
                         account for beneficiaries’ funds.

                     Three representative payees improperly endorsed and deposited at least
                     247 benefit checks totaling approximately $135,000 for whom they were
                     not the representative payee of record.

                     We made a total of 37 recommendations for corrective actions to appropriate
                     SSA Regional Commissioners. Generally, we recommended representative
                     payees:

                       • Maintain supporting      documentation     for    the   expenditures   of
                         beneficiaries.

                       • Establish an accounting system, including supporting documentation,
                         to track benefits received, spent, and conserved.

                       • Establish a separate bank account for beneficiaries’ funds.

                       • Stop the practice of negotiating Social Security checks when they are
                         not the representative payee of record.




page 50   •   Management Issues
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



SSA agreed with over 90 percent of our recommendations. The Agency
reports it has worked with the representative payees to implement our
specific recommendations.

Investigation: Dishonest Payee Represents 200 Clients

Our Seattle Field Division investigated a woman operating an institutional
representative payee service since 1996, representing approximately
200 clients. Our investigators determined that while operating as a
not-for-profit service, the woman embezzled over $107,000 in funds.
In one egregious example, a homeless beneficiary was unaware of his
approximately $15,000 retroactive benefit check, which the representative
payee used for herself. She was incarcerated and ordered to pay $107,292
in restitution directly to 88 victims. SSA’s Olympia office assisted greatly in
the successful outcome of this investigation.

Investigation: Father Fakes Daughter’s Entitlement

Our Chicago Field Division investigated a man who served as representative
payee for his daughter. Our investigators determined that the daughter
was removed from her father’s care and custody in November 2001 and
placed in foster care. Because she received foster care payments, she was
ineligible for continued SSI benefits, but her father did not notify SSA about
the change in his daughter’s living arrangements. He continued to receive
and convert his daughter’s SSI payments to his own use from December
2001 to September 2002, totaling $5,436 in SSI fraud losses. He was
convicted of defrauding SSA and incarcerated.

Investigation: Mother-Daughter Team Caught

Our Los Angeles Field Division investigated a woman who served as
representative payee for her mother. SSA denied the mother’s SSI benefits
in 1987 because the mother was working, but an ALJ review reversed the
decision, and SSI benefits were paid from April 1987 to February 2001,
resulting in an overpayment of $104,499. The daughter provided her own
SSN to her mother and instructed her to use it to conceal her work activity,
enabling the mother to continue receiving SSI benefits. At OIG’s request,
SSA reopened the case. The representative payee was incarcerated and
ordered to pay restitution of $14,880 to SSA, and the mother’s case is
pending.

Human Capital Challenges

Many agencies, including SSA, share the challenge to address human capital
shortfalls. The critical loss of institutional skills and knowledge, combined
with greatly increased workloads at a time when the baby-boom generation


                                                                   Management Issues •    page 51
              Semiannual Report to Congress                       April 1, 2003 — September 30, 2003



                     will require its services, must be addressed by succession planning, strong
                     recruitment efforts, and the effective use of technology as previously
                     discussed.

                     In January 2001, GAO added strategic human capital management to its
                     list of high-risk Federal programs and operations. By 2010, workloads are
                     anticipated to increase to unprecedented volumes. Along with the workload
                     increase, the incredible pace of technological change will have a profound
                     impact on both the public’s expectations and SSA’s ability to meet those
                     expectations.

                     At current staffing levels, SSA finds it difficult to maintain an acceptable level
                     of service, especially in its most complicated workloads. After downsizing
                     and curtailing investments in human capital (people), the Government is
                     facing a major challenge to meet the current and emerging needs of the
                     Nation’s citizens.

                     The Agency reports its Human Capital and Future Workforce Transition
                     Plans will continue to serve as the planning and monitoring instruments
                     in the administration of actions to address this critical vulnerability. As
                     of September 30, 2003, SSA continues to score “green” in “Progress In
                     Implementing President’s Management Agenda” on the Executive Branch
                     Management Scorecard.




                     A Special Thank You

                     We would like to thank our entire OIG staff for their outstanding efforts and
                     contributions, without which this report would not have been possible.


page 52   •   Management Issues
April 1, 2003 — September 30, 2003   SSA Office of the Inspector General




                                                   Management Issues •     page 53
Semiannual Report to Congress   April 1, 2003 — September 30, 2003
April 1, 2003 — September 30, 2003     SSA Office of the Inspector General




                          Appendices




                                                              Appendices     •   page 55
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 56   •   Management Issues
April 1, 2003 — September 30, 2003                                       SSA Office of the Inspector General



Appendix A

Resolving Audit Recommendations
The following chart summarizes Social Security Administration’s (SSA) responses to our
recommendations for the recovery or redirection of questioned and unsupported costs.
Questioned costs are those costs that are challenged because of a violation of law, regulation,
etc. Unsupported costs are those costs that are questioned because they are not justified by
adequate documentation. This information is provided in accordance with Public Law (P.L.) 96-
304 (the Supplemental Appropriation and Recession Act of 1980) and the Inspector General
Act of 1978, as amended.


                          Reports with Questioned Costs for the Reporting Period
                                April 1, 2003 through September 30, 2003

                                                                        Number     Value Questioned         Value Unsupported

     A. For which no management decision had been made by the
        commencement of the reporting period.                             6             $2,741,215                $1,218,766

     B. Which were issued during the reporting period.                   11a          $47,693,550                 $1,254,963

                          Subtotal (A + B)                                17          $50,434,765                 $2,473,729

        Less:


     C. For which a management decision was made during the
        reporting period.                                                13b          $10,909,522                 $1,768,341

        i.    Dollar value of disallowed costs.                           7             $8,954,071                $1,213,691

        ii.   Dollar value of costs not disallowed.                       6             $1,955,451                   $554,650

     D. For which no management decision had been made by the
        end of the reporting period.                                      7           $39,525,243                    $705,388


a.    See Reports with Questioned Costs in Appendix B of this report.


b.    Financial Related Audit of the Harris County Guardianship Program — an Organizational Representative Payee for the Social
      Security Administration (A-04-02-12020, 12/16/02) and Audit of Administrative Costs Claimed by the California Disability
      Determination Services (A-09-02-22022, 5/7/03) contained dollars that were disallowed and dollars not disallowed. Additionally,
      a management decision was made for only a portion of the questioned costs contained in the report, Administrative Costs Claimed
      by the Hawaii Disability Determination Services (A-09-03-13012, 9/4/03).




                                                                                                      Appendices         •   page 57
                    Semiannual Report to Congress                                      April 1, 2003 — September 30, 2003




  The following chart summarizes SSA’s response to our recommendations that funds be put to
  better use through cost avoidances, budget savings, etc.


                Reports with Recommendations that Funds Be Put to Better Use for the
                     Reporting Period April 1, 2003 through September 30, 2003

                                                                                        Number                 Dollar Value

       A. For which no management decision had been made by the
          commencement of the reporting period.                                             4                      $75,306,939

       B. Which were issued during the reporting period.                                   10a                  $978,441,229b

                           Subtotal (A + B)                                                14                 $1,053,748,168

          Less:


       C. For which a management decision was made during the reporting
          period.

           i.   Dollar value of recommendations that were agreed to by
                management.


                (a) Based on proposed management action.                                    6                    $759,836,457

                (b) Based on proposed legislative action.                                   1                      $19,571,271

          ii.   Dollar value of costs not agreed to by management.                          2                    $134,706,612

                           Subtotal (i + ii)                                                9                    $914,114,340

       D. For which no management decision had been made by the end of the
          reporting period.                                                                 5                    $139,633,828


  a.    See Reports with Funds Put to Better Use in Appendix B of this report.


  b.    These dollars include additional amounts recognized by SSA that relate to an audit report issued in a prior period. As a result
        of our report entitled, The Social Security Administration Can Recover Millions in Medicare Premiums Related to Retirement or
        Disability Payments Made after Death (A-08-02-12029, 7/3/02), SSA estimated about $802 million in payment errors, which is
        $655,450,819 more than OIG cited in its report.




page 58         •   Appendices
April 1, 2003 — September 30, 2003                            SSA Office of the Inspector General



Appendix B

Reports Issued

                            Reports with Non-Monetary Findings
                           October 1, 2002 through March 31, 2003

     CIN                                            Report                                       Issue Date

                 Management Advisory Report: Limited Review of Connecticut Disability
 A-15-02-22040                                                                                      10/3/02
                 Determination Services’ Lease Costs
                 Financial-Related Audit of the Washington State Department of Social and
 A-13-02-12010   Health Services — An Organizational Representative Payee for the Social            10/8/02
                 Security Administration
                 Allegations of Inappropriate Pay and Travel Practices at the Philadelphia
 A-13-02-22097                                                                                      10/8/02
                 Regional Office (Limited Distribution)
                 Congressional Response Report: Status of Corrective Actions Taken in
 A-13-01-21046   Response to Recommendations in Fiscal Years 1997 Through 2000 Payment              10/9/02
                 Accuracy Task Force Reports
                 Management Advisory Report: The Social Security Administration’s Oversight
 A-14-02-22026   of the Disability Determination Services’ Systems Security (Limited                10/24/02
                 Distribution)
                 Management Advisory Report: Single Audit of the State of Illinois for the
 A-77-03-00001                                                                                      10/31/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of New Hampshire
 A-77-03-00002                                                                                      11/12/02
                 for the Fiscal Year Ended June 30, 2001

                 Inspector General Statement on the Social Security Administration’s Major
 A-02-03-13034                                                                                      11/15/02
                 Management Challenges

                 Congressional Response Report: Status of the Social Security
 A-03-03-23038                                                                                      11/18/02
                 Administration’s Earnings Suspense File

 A-15-02-12075   Fiscal Year 2002 Financial Statement Audit                                         11/19/02

                 Management Advisory Report: Single Audit of the State of Ohio for the Fiscal
 A-77-03-00003                                                                                      11/21/02
                 Year Ended June 30, 2001
                 Congressional Response Report: The Social Security Administration’s
 A-13-03-23051   Relocation of the Office of Hearings and Appeals in Columbus, Ohio (Limited        11/27/02
                 Distribution)
                 Management Advisory Report: Fiscal Year 2002 Quick Response Activities
 A-13-03-13031                                                                                      12/4/02
                 Summary Report

                 Management Advisory Report: Single Audit of the State of Louisiana for the
 A-77-03-00004                                                                                      12/11/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of Maine for the
 A-77-03-00005                                                                                      12/12/02
                 Fiscal Year Ended June 30, 2001

                 Management Advisory Report: Single Audit of the State of Montana for the
 A-77-03-00006                                                                                      12/16/02
                 2-Year Period Ended June 30, 2001

 A-14-03-13047   Evaluation of the Accelerated eDib System - Third Assessment                       12/20/02

                 Management Advisory Report: Physical Security for the Social Security
 A-14-02-32061   Administration’s Laptop Computers, Cellular Telephones, and Pagers (Limited        12/24/02
                 Distribution)
                 Review of Social Security Administration Controls over the Access, Disclosure
 A-08-02-22071                                                                                      12/30/02
                 and Use of Social Security Numbers by External Entities



                                                                                       Appendices     •   page 59
                Semiannual Report to Congress                               April 1, 2003 — September 30, 2003




                                Reports with Non-Monetary Findings
                               October 1, 2002 through March 31, 2003

          CIN                                           Report                                        Issue Date

                     Review of the Social Security Administration’s Fiscal Year 2003 Annual
   A-02-02-12033                                                                                        1/7/03
                     Performance Plan

                     Management Advisory Report: Single Audit of the State of New Mexico,
   A-77-03-00007                                                                                       1/16/03
                     Department of Education, for the Fiscal Year Ended June 30, 2001

                     Management Advisory Report: Transactions Involving the Government
   A-13-02-22094                                                                                       1/23/03
                     Purchase Card (Limited Distribution)

   A-15-02-11083     Performance Indicator Audit: Electronic Access                                    1/23/03

                     Congressional Response Report: The Social Security Administration’s Efforts
   A-09-03-23067                                                                                       1/24/03
                     to Process Death Reports and Improve its Death Master File

   A-15-02-11087     Performance Indicator Audit: Wage Reporting                                       1/28/03


   A-02-02-11082     Performance Indicator Audit: Customer Satisfaction                                 2/4/03

                     Management Advisory Report: Single Audit of the State of Rhode Island for
   A-77-03-00009                                                                                       2/10/03
                     the Fiscal Year Ended June 30, 2001

   A-15-02-11085     Performance Indicator Audit: Appeals Council (Limited Distribution)               2/21/03


   A-15-02-32092     Performance Indicator Audit: Postentitlement Automation Rate                      2/26/03

                     Referring Potentially Fraudulent Enumeration Applications to the Office of the
   A-14-03-23052                                                                                        3/3/03
                     Inspector General

   A-15-01-11033     Analysis of Multiple, Unrelated Title II Payments to the Same Bank Account         3/3/03

                     Internal Control Review of the Remittance Process at the Social Security
   A-15-02-22001                                                                                        3/3/03
                     Administration’s Mid-Atlantic Program Service Center (Limited Distribution)
                     Internal Control Review of the Remittance and Disbursement of Cash or
   A-15-01-21031     Cash Equivalents at Social Security Administration Field Offices (Limited          3/5/03
                     Distribution)
                     Federal Agencies’ Controls Over the Access, Disclosure and Use of Social
   A-08-03-13050                                                                                       3/11/03
                     Security Numbers by External Entities

                     Congressional Response Report: Social Security Administration Benefits
   A-03-03-23053                                                                                       3/18/03
                     Related to Unauthorized Work

   A-15-02-11084     Performance Indicator Audit: Paperless/Electronic Processing                      3/18/03




page 60    •    Appendices
April 1, 2003 — September 30, 2003                           SSA Office of the Inspector General



                           Reports with Non-Monetary Findings
                         April 1, 2003 through September 30, 2003

     CIN                                            Report                                       Issue Date

                 Management Advisory Report: The Social Security Administration’s Workers’
 A-06-03-13022                                                                                      4/15/03
                 Compensation Data Match with the State of Texas

                 Congressional Response Report: Review of the Social Security Number
 A-03-03-13017                                                                                      4/28/03
                 Feedback Pilot Project

 A-02-02-11088   Performance Indicator Audit: Enumeration                                           4/30/03


 A-02-02-12050   Assessment of the Social Security Administration’s Performance Measures            4/30/03


 A-13-01-11042   The Social Security Administration’s Site Reviews of Representative Payees         4/30/03

                 Audit of the Atlantis Rehabilitation and Nursing Center – A Representative
 A-02-03-13013                                                                                      5/6/03
                 Payee for the Social Security Administration

                 Project Matrix Step Two Analysis of the National Computer Center, the
 A-14-03-23008   Telecommunications Systems, and the Integrated Client Database (Limited            5/20/03
                 Distribution)

 A-15-02-11086   Performance Indicator Audit: Payment Accuracy                                      6/6/03

                 Follow-up Review of Old-Age, Survivors and Disability Insurance Benefits
 A-01-03-13037                                                                                      6/13/03
                 Paid to Deceased Auxiliary Beneficiaries

 A-13-03-23015   Data Matching with Foreign Countries                                               6/17/03

                 Management Advisory Report: Best Practices in Federal Paper Records
 A-04-03-13030                                                                                      6/23/03
                 Management

                 Congressional Response Report: Use of Mental Consultative Examinations
 A-01-03-23081                                                                                      7/7/03
                 by the Wisconsin Disability Determination Bureau (Limited Distribution)

 A-14-03-23069   Evaluation of the Accelerated eDib System - Fourth Assessment                      7/10/03


 A-01-02-12018   Follow-up on Prior Office of the Inspector General Prisoner Audits                 7/24/03

                 Congressional Response Report: The Social Security Administration’s
 A-13-03-23087                                                                                      7/24/03
                 Policies and Procedures Concerning the Rural Development Act of 1972
                 Congressional Response Report: Office of Hearings and Appeals
 A-13-03-33089   Administrative Law Judges’ Work Assignments in Greensboro and Raleigh,             8/11/03
                 North Carolina (Limited Distribution)
                 Congressional Response Report: The Social Security Administration’s
 A-13-03-23088                                                                                      8/15/03
                 Government Travel Card Program
                 Management Advisory Report: President’s Council on Integrity and
 A-14-03-23001   Efficiency Review of Critical Infrastructure Protection Program - Cyber-based      8/15/03
                 Infrastructure (Limited Distribution)
                 Use of Mental Consultative Examinations by the Wisconsin Disability
 A-01-03-23090                                                                                      8/22/03
                 Determination Bureau

                 Congressional Response Report: Use and Misuse of the Social Security
 A-03-03-24048                                                                                      8/22/03
                 Number




                                                                                       Appendices    •   page 61
                Semiannual Report to Congress                                April 1, 2003 — September 30, 2003




                                Reports with Non-Monetary Findings
                              April 1, 2003 through September 30, 2003

          CIN                                            Report                                      Issue Date


                     Effective Use of Encryption Technology to Protect the Social Security
   A-14-02-12048                                                                                      8/22/03
                     Administration’s Information Assets (Limited Distribution)

                     Summary of the Office of the Inspector General’s Reviews of the Social
   A-02-03-13033                                                                                       9/3/03
                     Security Administration’s Performance Data
                     Issue Paper: Detecting, Preventing, and Eliminating Unidentified
   A-09-02-22067     Overpayments in the Social Security Administration’s Disability Programs          9/3/03
                     (Limited Distribution)
                     Administrative Costs Claimed by the State of Washington Division of
   A-15-02-12025                                                                                       9/3/03
                     Disability Determination Services

                     Evaluation of Social Security Administration’s Compliance with the Federal
   A-14-03-13046                                                                                       9/5/03
                     Information Security Management Act

                     Profile of the Social Security Administration’s Non-Work Alien File (Limited
   A-14-03-23071                                                                                       9/5/03
                     Distribution)

                     Management Advisory Report: Sensitive Data Accessible on the Social
   A-14-04-24036                                                                                      9/12/03
                     Security Administration Intranet (Limited Distribution)

                     General Controls of the Washington Division of Disability Determination
   A-14-02-22093                                                                                      9/15/03
                     Services Claims Processing System Need Improvement (Limited Distribution)

                     Project Matrix Step Two: Review of the Social Security Administration’s Title
   A-14-03-13045                                                                                      9/15/03
                     XVI Claims Payment Process (Limited Distribution)

   A-15-03-33084     Peer Review of the Department of Education’s Office of Inspector General         9/15/03


   A-07-03-13059     Summary of Single Audit Oversight Activities May 2002 through April 2003         9/23/03


   A-44-03-23092     Top Management Challenges—Fiscal Year 2004                                       9/23/03

                     Administrative Costs Claimed by the Florida Division of Disability
   A-08-03-13006                                                                                      9/25/03
                     Determinations




page 62    •    Appendices
April 1, 2003 — September 30, 2003                     SSA Office of the Inspector General




                            Reports with Questioned Costs
                        October 1, 2002 through March 31, 2003

     CIN         Issue Date                            Report                             Dollar Amount

                              Audit of the Administrative Costs Claimed by the Kansas
A-07-02-22003    10/23/02                                                                   $5,674,737
                              Disability Determination Services

                              Representative Payee Investigation of Puget Protective
A-09-01-21045    11/26/02                                                                        $55,994
                              Payeeship (Limited Distribution)
                              Financial-Related Audit of the Harris County Guardianship
A-04-02-12020    12/16/02     Program – an Organizational Representative Payee for the      $1,468,961
                              Social Security Administration
                              Management Advisory Report: Single Audit of the State of
A-77-03-00008     1/27/03                                                                       $250,635
                              New York for the Fiscal Year Ended March 31, 2001

                              Administrative Costs Claimed by the Commonwealth of
A-06-02-22072     2/12/03                                                                        $98,262
                              Puerto Rico Disability Determination Program
                              Management Advisory Report: Single Audit of the
A-77-03-00010     3/12/03     Commonwealth of Puerto Rico, Department of the Family,              $4,527
                              for the Fiscal Year Ended June 30, 2000
                              Management Advisory Report: Single Audit of the
A-77-03-00011     3/20/03     Commonwealth of Puerto Rico, Department of the Family,            $100,692
                              for the Fiscal Year Ended June 30, 2001
                                                                                Total:     $7,653,808




                             Reports with Questioned Costs
                       April 1, 2003 through September 30, 2003

     CIN         Issue Date                            Report                             Dollar Amount

                              Audit of Administrative Costs Claimed by the California
 A-09-02-22022     5/7/03                                                                   $5,597,495
                              Disability Determination Services
                              Audit of Key Point Health Services, Inc. – An
 A-13-02-22014    5/29/03     Organizational Representative Payee for the Social                $705,388
                              Security Administration
                              Administrative Costs Claimed by the New York Disability
 A-15-00-20053     6/4/03                                                                   $1,090,197
                              Determination Division

                              Sierra Regional Center – An Organizational Representative
 A-09-03-23023    6/20/03                                                                            $1,399
                              Payee for the Social Security Administration
                              Audit of the Community Counseling Centers of Chicago
 A-13-03-13002    7/15/03     – A Fee-for-Service Representative Payee for the Social            $43,152
                              Security Administration
                              Management Advisory Report: Title II Disability Insurance
 A-04-02-21054    7/23/03     Benefits with Workers’ Compensation Underpayment                  $100,399
                              Errors Exceeding $70,000




                                                                                   Appendices    •    page 63
                Semiannual Report to Congress                            April 1, 2003 — September 30, 2003




                                   Reports with Questioned Costs
                             April 1, 2003 through September 30, 2003

          CIN         Issue Date                              Report                              Dollar Amount

                                    Audit of Cottonwood, Incorporated – An Organizational
   A-07-03-13024        8/4/03      Representative Payee for the Social Security                       $27,250
                                    Administration (Limited Distribution)
                                    The Connecticut Mental Health Center, Money
   A-13-03-23009        8/14/03     Management Program – An Organizational Representative              $45,000
                                    Payee for the Social Security Administration
                                    Administrative Costs Claimed by the Illinois Bureau of
   A-05-02-22019        8/18/03                                                                     $4,034,660
                                    Disability Determination Services

                                    Administrative Costs Claimed by the Hawaii Disability
   A-09-03-13012        9/4/03                                                                        $417,002
                                    Determination Services

                                    Assessment of the Supplemental Security Income Fugitive
   A-01-03-23070        9/5/03                                                                     $36,886,571
                                    Felon Project

                  Total Questioned Costs for April 1, 2003 through September 30, 2003:            $48,948,513


                                           Total Questioned Costs for Fiscal Year 2003:           $56,602,321




                              Reports with Funds Put to Better Use
                             October 1, 2002 through March 31, 2003

          CIN         Issue Date                              Report                              Dollar Amount

                                    Identifying Representative Payees Who Had Their Own
   A-01-02-12073       10/10/02     Benefits Suspended Under the Fugitive Provisions of Public        $118,931
                                    Law 104-193
                                    Audit of the Administrative Costs Claimed by the Kansas
   A-07-02-22003       10/23/02                                                                     $6,138,225
                                    Disability Determination Services
                                    Old-Age, Survivors and Disability Insurance and
   A-06-02-12012       10/30/02     Supplemental Security Income Payments to Deceased              $12,103,900
                                    Beneficiaries and Recipients
                                    Administrative Costs Claimed by the Commonwealth of
   A-06-02-22072       2/12/03                                                                        $586,584
                                    Puerto Rico Disability Determination Program

                                    Disability Determination Services’ Use of Volume
   A-07-02-12049       3/10/03                                                                     $13,882,919
                                    Consultative Examination Providers

   A-01-02-12032       3/14/03      Screening Representative Payees for Fugitive Warrants          $19,571,271

                                    The Social Security Administration’s Processing of Internal
   A-03-02-22068       3/18/03                                                                     $41,370,210
                                    Revenue Service Overstated Wage Referrals

                                                                                       Total:     $93,772,040




page 64    •    Appendices
April 1, 2003 — September 30, 2003                       SSA Office of the Inspector General




                         Reports with Funds Put to Better Use
                       April 1, 2003 through September 30, 2003

     CIN         Issue Date                              Report                             Dollar Amount

                               Audit of Administrative Costs Claimed by the California
 A-09-02-22022     5/7/03                                                                      $6,983,322
                               Disability Determination Services

                               Use of State Bureaus of Vital Statistics Records to
 A-09-00-30059     6/2/03                                                                     $51,150,375
                               Detect Unreported Marriages and Divorces

                               Administrative Costs Claimed by the New York Disability
 A-15-00-20053     6/4/03                                                                      $4,399,192
                               Determination Division
                               Pending Workers’ Compensation: The Social Security
 A-08-02-12064     6/6/03      Administration Can Prevent Millions in Title II Disability    $120,823,693
                               Overpayments
                               Administrative Costs Claimed by the Illinois Bureau of
 A-05-02-22019     8/18/03                                                                     $1,247,932
                               Disability Determination Services

                               Administrative Costs Claimed by the Hawaii Disability
 A-09-03-13012     9/4/03                                                                         $218,069
                               Determination Services

 A-04-03-13040     9/23/03     Audit of the Wilkes-Barre Folder Servicing Operation                $13,400

                               Administrative Costs Claimed by the Kentucky
 A-08-03-13007     9/24/03                                                                        $654,427
                               Department for Disability Determination Services

                               Controls Over Supplemental Security Income
 A-05-03-13010     9/26/03                                                                   $137,500,000
                               Replacement Checks

     Total Funds Put to Better Use for April 1, 2003 through September 30, 2003:            $322,990,410


                              Total Funds Put to Better Use for Fiscal Year 2003:           $416,762,450




                                                                                     Appendices   •   page 65
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 66   •   Appendices
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



Appendix C

Reporting Requirements Under the Omnibus Consolidated
Appropriations Act for Fiscal Year 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act for 1997,
P.L. 104-208, we are providing requisite data for fiscal year (FY) 2003 from the Offices of
Investigations and Audit in this report.


Office of Investigations
We are reporting $24,178,250 in funds collected as a result of our investigative activities in
this reporting period. These funds are broken down in the table below.



                                     Investigative Activities


                 1st Quarter    2nd Quarter       3rd Quarter     4th Quarter             Total

 Court
 Ordered           $5,248,995        $7,842,245    $5,698,623       $3,564,571      $22,354,434
 Restitution
 Scheduled
                   $8,380,280        $8,756,429    $7,003,504       $7,374,837      $31,515,050
 Recoveries

 Fines               $121,483          $225,600      $171,175         $195,787            $714,045

 Settlements/
                     $108,965           $11,823      $112,390          $57,363            $290,541
 Judgments

 TOTALS          $13,859,723     $16,836,097      $12,985,692     $11,192,558       $54,874,070




Office of Audit
SSA management has informed us that it has completed implementing recommendations
from 7 audit reports during this time period valued at over $58 million.

Identification of Fugitives Receiving Supplemental Security Income
(A-01-98-61013, 8/28/00)

We recommend that SSA reach agreement with State agencies, which either do not enter all
fugitive felon data into the National Crime Information Center or provide data to the United
States Department of Agriculture, to obtain their fugitive information in an electronic format
on a routine basis. The implemented recommendation is valued at $29,856,060.


                                                                           Appendices      •   page 67
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



  Financial-Related Audit of the Baltimore City Department of Social Services –
  An Organizational Representative Payee for SSA (A-13-00-10066, 9/25/01)

  We recommended that SSA ensure that the Baltimore City Department of Social Services
  (BCDSS) implements controls to monitor and report to SSA all changes in circumstances
  that affect the amount of benefits beneficiaries receive or the right of beneficiaries to receive
  benefits. In addition, we recommended that BCDSS take corrective action to identify and
  repay all overpayments due to changes in beneficiaries’ circumstances. The implemented
  recommendations are valued at $233,154.

  Impact on SSA’s Programs When Auxiliary Beneficiaries Do Not Have Their Own
  Social Security Numbers (A-01-02-22006, 9/20/02)

  We recommended that SSA review the remaining 702 auxiliary beneficiaries identified by our
  earnings match to adjust their payments as needed. The implemented recommendation is
  valued at $2,484,633.

  Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
  Determination Program (PR-DDP)(A-06-02-22072, 2/12/03)

  We recommended that SSA instruct PR-DDP to comply with State policy governing
  compensatory time. The implemented recommendation is valued at $482,539.

  Disability Determination Services’ (DDS) Use of Volume Consultative Examination
  (CE) Providers (A-07-02-12049, 3/10/03)

  We recommended that SSA provide guidance to DDSs on recruiting volume medical providers
  and negotiating discounted CE fees. The implemented recommendation is valued at
  $13,882,919.

  Audit of Administrative Costs Claimed by the California DDS (A-09-02-22022,
  5/7/03)

  We recommended that SSA ensure the California DDS deobligates any unliquidated obligations
  that are not supported by valid documentation for FY 1999 and 2000. We also recommended
  that SSA improve its oversight of CE fees and limit future payments to the highest rate
  allowable by Federal or other agencies in the State. The implemented recommendations are
  valued at $6,983,322.

  Administrative Costs Claimed by the New York Disability Determination Division
  (A-15-00-20053, 6/4/03)

  We recommended that SSA require the New York State Office of Temporary and Disability
  Assistance to eliminate unsupported positive invalid obligations from the Form SSA-4513
  report and decrease budget authority to recognize obligations no longer valid in the amount
  of $4,399,192.



page 68   •   Appendices
April 1, 2003 — September 30, 2003                               SSA Office of the Inspector General



Appendix D

Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act for 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of Inspector General activities each semiannual period.


Office of Investigations

                Total Restitution Reported by the Department of Justice
                   as Collected for the Social Security Administration

                        Total Number
                                                           Court Ordered
      Fiscal           of Individuals                                             Total Restitution
                                                             Restitution
      Year             Assigned Court                                             Collected by DOJ
                                                           for This Period
                     Ordered Restitution

       2001                                     670                $23,067,026               $2,498,686


       2002                                     600                $18,068,423               $2,643,872


       2003                                     567                $22,354,434                $307,9021

    TOTALS                                   1,837                $63,489,883               $5,450,460

1
Reflects collection for October 1, 2002-March 31, 2003.




                       Funds Received by the Office of Investigations
                                Based on Recovery Actions

                                                                                    Actual Amount
                       Total Number of
      Fiscal                                              Amount Scheduled           Recovered at
                       Recovery Actions
      Year                                                  for Recovery           the Close of the
                           Initiated
                                                                                    Investigation

       2001                                    1,994                $33,958,212             $13,804,187


       2002                                    2,202                $29,434,025              $8,765,025


       2003                                    2,442                $31,515,050              $9,025,423


    TOTALS                                    6,638               $94,907,287              $31,594,635




                                                                                        Appendices     •   page 69
                 Semiannual Report to Congress                            April 1, 2003 — September 30, 2003



                 Office of Audit
                 The following chart summarizes the Agency’s responses to our recommendations for
                 the recovery or redirection of questioned and unsupported costs. This information
                 is prepared in coordination with the Agency’s management officials and is current
                 as of September 30, 2003.


                    Responses to OIG’s Recommendations for the Recovery or
                        Redirection of Questioned and Unsupported Costs

                Number of
                              Questioned/                          Amount            Amount
               Reports with                   Management
     FY                       Unsupported                     Collected or to be   Written-Off/    Balance
               Questioned                     Concurrence
                                 Costs                            Recovered        Adjustments
                  Costs


    2001           23          $135,100,905    $131,165,106      $87,667,320         $2,450,161    $45,113,849


    2002           13           $15,551,282      $7,515,730        $8,276,020        $8,041,929              $0


    2003           18           $56,602,321     $15,376,341        $5,207,027        $2,642,664    $48,205,539


   TOTALS          54         $207,254,508    $154,057,177     $101,150,367        $13,134,754    $93,319,388




page 70    •    Appendices
April 1, 2003 — September 30, 2003                  SSA Office of the Inspector General



Appendix E

Significant Monetary Recommendations From Prior
Fiscal Years for Which Corrective Actions Have Not Been
Completed

Old-Age, Survivors and Disability Insurance (OASDI) Benefits Paid to Fugitives
(A-01-00-10014, 8/29/00)

Recommendation: We recommended that SSA pursue legislation prohibiting payment of
OASDI benefits to fugitives similar to the provisions pertaining to SSI payments under
P. L. 104-193.

Valued at: $39,646,884 in funds put to better use, based on legislative action.

Agency Response: SSA agreed that the proposal to suspend OASDI benefits for fugitive
felons, as is currently done in the SSI program, deserves serious consideration. Further, SSA
recognized that it may be viewed as problematic to have different fugitive felon standards for
the OASDI and SSI programs.

Corrective Action: A provision in H.R. 4070 introduced in March 2002, would deny Title II
benefits to fugitive felons. H.R. 4070 was not enacted in the 107th Congress, but similar
provisions were introduced in the 108th Congress in H.R. 743.

Payments to Child Beneficiaries Age 18 or Over Who Were Neither Students Nor
Disabled (A-09-99-63008, 5/18/00)

Recommendation: We recommended that SSA modify its automated system to terminate
benefits to child beneficiaries at age 18 if they are neither under a disability or a full time
student.

Valued at: $435,282 in questioned costs.

Agency Response: SSA agreed that all child beneficiaries who are neither under a disability
nor full-time students should have their benefits automatically terminated at age 18.

Corrective Action: SSA plans to more fully automate this workload with implementation of
Release 3 of the Title II Redesign. Release 3 will provide the systems capability to terminate
benefits to child beneficiaries at age 18 if they are neither under a disability nor full-time
students, and to automate the processing of many of the complex cases now worked manually,
such as those involving workers’ compensation. Some cases will still require manual processing
because of the level of complexity, e.g., triple entitlement. While it is not possible to predict
exact numbers of cases at this point, we anticipate that the majority of this workload will be
fully automated with Release 3, which is expected to be implemented by April 2004.




                                                                           Appendices     •   page 71
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 72   •   Appendices
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



Appendix F

Significant Non-Monetary Recommendations From Prior
Fiscal Years for Which Corrective Actions Have Not Been
Completed

SSA’s Management of Congressional Inquiries (A-13-02-12011, 9/23/02)

Recommendation: We recommended that SSA develop and implement an Agency-wide
information system that incorporates current technology to control, monitor, and track all
congressional inquiries.

Agency Response: SSA agreed with the recommendation.

Corrective Action: On August 13, 2002, the Agency awarded two Blanket Purchase Agreements
(BPA) to facilitate this activity. The first was for software licenses and maintenance for the
Open Text Livelink product and related modules. This commercial document management
and workflow software product will form the core of SSA’s nationwide Assignment and
Correspondence Tracking (ACT) application. The second BPA was awarded for the services
and support required to design, develop and implement ACT. Orders have been placed against
both BPAs and work has begun.

Impact on SSA’s Programs When Auxiliary Beneficiaries Do Not Have Their Own
SSNs (A-01-02-22006, 9/20/02)

Recommendation: We recommended that SSA generate reports of auxiliary beneficiaries with
missing Beneficiary’s Own Account Number (BOAN) alerts that have not been cleared timely
to a higher level of management.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The reports will require systems programming. The Office of Operations
has submitted an Information Technology template to the Office of Systems to track the
volume of missing BOAN alerts by region and field office. On April 9, 2003, the Offices of
Operations and Systems met to discuss the planning and analysis for the template that will be
used to implement this recommendation.

Effectiveness of SSA’s Death Termination Process (A-09-02-22023, 9/17/02)

Recommendation: We recommended that SSA modify its automated systems to support
Electronic Death Registration (EDR), including the on-line verification of SSN, processing
of verified and unverified State death reports, and termination of benefits upon receipt of
verified State death reports.

Agency Response: SSA agreed and will continue to work on systems support for EDR. EDR is
an initiative under eVital, one of 24 governmentwide eGov initiatives.



                                                                         Appendices     •   page 73
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



              Corrective Action: The Internet Verification “front-end” phase was completed in
              December 2002. However, the pilot State, New Jersey, was not ready to participate.
              New Jersey expected to begin using EDR in February 2003. Software development
              is underway to process the death reports.

              SSA’s Employee Verification Service (EVS) for Registered Employers
              (A-03-02-22008, 9/12/02)

              Recommendation: We recommended that SSA modify EVS to detect SSNs for
              deceased individuals, provide appropriate notification to employers, and issue an
              alert for necessary action by SSA staff.

              Agency Response: SSA agreed with the recommendation.

              Corrective Action: Two proposals to identify if a death indicator is present on an SSN
              verification request via EVS were submitted through the IT priority process. DCS
              is currently developing software to implement the death indicator for verifications
              for employers. SSA is currently on target for the January 2004 implementation.
              A decision is pending on the use of Single Select for employer verifications. If a
              decision is made to remove it, the modification will either be included in a later
              release or the January implementation date will change.

              Recommendation: We recommended that SSA modify EVS to detect SSNs for
              individuals in nonwork status, provide appropriate notification to employers, and
              issue an alert for necessary action by SSA staff.

              Agency Response: SSA agreed with the recommendation.

              Corrective Action: Two proposals to identify if a death indicator is present on an SSN
              verification request via EVS and the Social Security Number Verification Service
              were submitted through the IT priority process. However, the Commissioner has
              decided not to include nonwork information in the verification process.

              SSA Can Recover Millions in Medicare Premiums Related to Retirement or
              Disability Payments Made after Death (A-08-02-12029, 7/3/02)

              Recommendation: We recommended that SSA establish a committee with Center
              for Medicare and Medicaid Services (CMS) officials to discuss procedures and
              practices for recovering Medicare premiums and work toward a joint resolution of
              the issue.

              Agency Response: SSA agreed with the recommendation.

              Corrective Action: The Office of Disability and Income Security Programs (ODISP)
              chaired an interagency videoconference in November 2002 with CMS executives
              and staff to discuss the OIG report and recommendations. SSA executives and
              staff were present at that meeting from the Office of Finance, Assessment and
              Management (DCFAM), DCS and the Office of the Actuary (OACT). Informal contact



page 74   •   Appendices
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



with CMS continues as DCFAM, OACT, DCS and the Office of Policy continue to
refine a methodology for determining the amount of unrecovered funds.

Recommendation: We recommended that if the transfer of unrecovered Medicare
premiums is determined to be practical and feasible, SSA should establish
an accounts receivable amount due from CMS for premiums remitted after
beneficiaries’ deaths. The amount should include premiums already remitted
to CMS and those SSA may continue to remit after beneficiaries’ deaths until a
system is in place to prevent such occurrences.

Agency Response: SSA agreed with the recommendation.

Corrective Action: Systems changes, put in place January 2003, are identifying
current unrecovered premium amounts which are netted against amounts
transferred to CMS as current Supplemental Medical Insurance premiums.

Analysis of Information Concerning Representative Payee Misuse of
Beneficiaries’ Payments (A-13-01-11004, 6/25/02)

Recommendation: We recommended that SSA implement management controls
to prevent the appointment of individuals as representative payees who have
a representative payee managing their own benefits, and identify individuals
currently serving as representative payees that become incapable of managing
their own benefits.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA’s policy is that individuals who have a representative payee
should not be selected as a payee for someone else. SSA has established system
controls that will prevent this from occurring.

Beginning in September 2001, an alert is generated when a payee applicant is a
current beneficiary with a payee or when a person is applying to serve as payee for
a beneficiary who is a payee for another individual. If the user ignores the alert
and attempts to process the payee selection anyway, the Representative Payee
System blocks the selection.

Regarding beneficiaries having a payee who may have already been selected to be
someone else’s payee prior to the September 2001 process described above, files
that potentially identified representative payees with representative payees were
sent to the field offices for investigation. Another match was run in April 2002 to
identify any remaining inappropriate selections.

With the matches and software changes, SSA believed this audit recommendation
was complete. However, a Regional OIG investigator contacted ODISP and stated
that OIG has identified records that still have the “rep has a rep” condition. DCS
investigated to determine why this may have occurred and determined that it failed
to identify all cases in the April 2002 match, and the records the OIG identified



                                                                         Appendices     •   page 75
              Semiannual Report to Congress                      April 1, 2003 — September 30, 2003



              were established prior to the software change implemented in September 2001.
              The Agency reports the original match requirements were reviewed for the clean-
              up selection and the third match of “rep has a rep” cases (approximately 1,550)
              were released to field offices in August 2003.

              Work Activity for SSNs Assigned for Nonwork Purposes in the State of
              Utah (A-14-01-11048, 3/29/02)

              Recommendation: We recommended that SSA work with Immigration and
              Naturalization Service (INS), now in the Department of Homeland Security (DHS),
              to resolve data compatibility problems associated with the nonwork earnings file
              provided by SSA and involve employees familiar with the problem.

              Agency Response: SSA agreed with the recommendation.

              Corrective Action: Under the direction of the Enumeration Response Team, a
              subgroup is currently working on a proposal to expand the SSN electronic audit
              trail to capture information that could also be useful in resolving data compatibility
              problems between SSA and DHS. At this time, no milestone activities have been
              determined.

              Recommendation: We recommended that SSA work to establish an agreement with
              the Office of Child Support Enforcement (OCSE) whereby SSA submits nonwork
              SSN records to OCSE each quarter, and OCSE associates quarterly earnings with
              the records before returning them to SSA.

              Agency Response: SSA believes this recommendation may have merit.

              Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a
              driver’s license or motor vehicle registration. This policy change closes opportunities
              for illegal work. In addition, SSA is continuing to work with DHS on a number of
              fronts to improve the enumeration process. Once SSA has assessed the impact of
              these activities, SSA will revisit this recommendation and determine how to best
              proceed within the constraints of SSA’s disclosure/privacy regulations and policies
              on working with and sharing information with OCSE and DHS for the purposes of
              identifying persons who work illegally and employers who hire such persons.

              Recommendation: We recommended that SSA use the quarterly wage information
              or other suitable methods to prevent the issuance of replacement Social Security
              cards when there is evidence of illegal employment and to advise employers of
              nonwork status when verifying employee SSNs.

              Agency Response: SSA agreed that there should be tighter controls for issuing
              replacement cards to aliens who are not authorized to work.

              Corrective Action: SSA will investigate the best method for doing that, including
              the possibility of issuing revised instructions and reminders on the policy on issuing
              replacement cards and on updating Numident records. SSA will also explore
              appropriate mechanisms for helping DHS monitor employment authorization.

page 76   •   Appendices
April 1, 2003 — September 30, 2003                 SSA Office of the Inspector General



Recommendation: We recommended that SSA match the quarterly nonwork
earnings file with the Earnings Suspense File to identify and report to INS (now
in DHS) employers who consistently hire people who are not authorized for
employment and individuals who use, for employment, nonwork SSNs and false
identities.

Agency Response: SSA believes this recommendation may have merit.

Corrective Action: SSA will revisit this recommendation once an assessment of
the impact of previously referenced activities that are underway or planned is
complete.

Performance Measure Review: Reliability of the Data Used to Measure
the Timely Processing of Disability Insurance Claims (A-02-99-11001,
10/2/01)

Recommendation: We recommended that SSA provide an adequate audit trail
to document the processes involved in the generation and accumulation of the
performance measure.

Agency Response: SSA agreed with the recommendation.

Corrective Action: DCS is addressing this issue as it transitions the Management
Information Initial Claims Record functionality to the Title II Workload Management
Information System. A General Project Scope Agreement was agreed upon. The
first release went to production on June 27, 2003 and the second release is on
schedule for February 2004. However, processing times will not be addressed until
Release 3 of this effort. Planning and Analysis (P&A) for release 3 is tentatively
scheduled to start in January 2004. Once the P&A is completed, SSA will be able
to provide a projected completion date.

Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01)

Recommendation: We recommended that SSA re-invest some of the savings
realized by the Enumeration at Birth (EAB) program. This could provide necessary
funding, during future contract modifications, for the Bureaus of Vital Statistics to
perform periodic, independent reconciliations of registered births with statistics
obtained from hospitals’ labor and delivery units, and periodically verify the
legitimacy of sample birth records obtained from hospitals.

Agency Response: SSA agreed in principle with the recommendation.

Corrective Action: On March 31, 2003, SSA met with the National Association for
Public Health Statistics and Information System (NAPHSIS). NAPHSIS wants SSA
to develop the complete audit plan for them including a complete statistically valid
sampling plan based on the number of birthing hospitals in each State. Once the
plan is developed, NAPHSIS would like SSA to tap into other sources for funding a
full audit program in each State.


                                                                          Appendices     •   page 77
              Semiannual Report to Congress                    April 1, 2003 — September 30, 2003



              On June 17, 2003, an IT template was prepared for the EAB audit provisions.
              This plan must be approved and submitted for DCS review. SSA developed the
              complete audit plan at NAPHSIS’ request to include a statistically valid sampling
              method based on the number of birthing hospitals in each State. DCO has shared
              the concept of this plan with NAPHSIS executives. NAPHSIS advised that SSA
              should drop the search for additional Federal funds since these were available on
              a State basis only.

              Recommendation: We recommended that SSA enhance its duplicate record
              detection and prior SSN detection routines to provide greater protection against
              the assignment of multiple SSNs.

              Agency Response: SSA agreed on the issue of duplicate record detection. SSA also
              agreed that there are cases where a subsequent SSN application is not identified
              due to minor changes in names.

              Corrective Action: For EAB cases, the duplicate record detection routine currently
              considers two SSN applications to be duplicate only if the required data fields
              match exactly, including birth certificate numbers. For example, if the birth
              certificate numbers for two records are different, the records are not treated as
              possible duplicates even if the other data fields are identical. Agreement has been
              reached to have the routine consider two SSN applications to be duplicate if all of
              the required data fields match exactly, even if the birth certificate numbers are
              different. The Office of Operations and DCS recently met on the IT plans and no
              decisions were made to implement the plans at this time.

              For nonEAB cases, DCS staff met and discussed this recommendation and
              determined it would be possible to modify the automated enumeration screening
              process to detect variations in the spelling of applicant names. However, while this
              would provide greater protection against the assignment of multiple SSNs, there
              would be undesirable consequences. It would create delays in the processing of
              multiple birth cases. The envisioned routine would catch some, but not all, of the
              93 multiple SSN examples we cited. The findings have been shared with the user
              community.

              Payments Made to Selected Representative Payees after the Deaths of
              Social Security Beneficiaries (A-13-01-21028, 9/18/01)

              Recommendation: We recommended that SSA resolve beneficiary date-of-death
              discrepancies we identified and develop and implement procedures for the timely
              and accurate recordation of dates of death.

              Agency Response: SSA has already begun to correct the records containing date
              of death discrepancies.

              Corrective Action: SSA will review the procedures the payee has implemented to
              ensure compliance with its regulations and to prevent future occurrences of this



page 78   •   Appendices
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



nature. In addition, a new Death Alert, Control and Update System process is
scheduled to be completed soon which will identify deceased representative payees
in the Representative Payee System.

Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027, 8/21/01)

Recommendation: We recommended that SSA collect each attorney’s SSN, name
and address information so IRS Form 1099 can be issued to attorneys.

Agency Response: SSA’s Executive Task Force is addressing the issue of providing
IRS Form 1099 to attorneys and is developing a business process for issuing these
forms.

Corrective Action: The Executive Task Force has established a target of issuing
Form 1099 to attorneys in January 2005 (representing attorneys fees received
during tax year 2004). DCS is currently conducting planning and analysis sessions
to plan and develop systems enhancements necessary to collect the appropriate
attorney data and issue the Form 1099.

Audit of SSA’s FY 2001 Annual Performance Plan (APP) (A-02-00-10038,
6/18/01)

Recommendation: We recommended that SSA coordinate with the CMS to
determine which Agency should establish performance goals for service to Medicare
recipients.

Agency Response: SSA will explore the feasibility of establishing such a goal.

Corrective Action: SSA has discussed this recommendation with CMS. At this time
an implementation date has not been set.

Procedures for Verifying Evidentiary Documents Submitted With Original
SSN Applications (A-08-98-41009, 9/19/00)

Recommendation: We recommended that SSA continue efforts to establish an
implementation date for planned system controls that will interrupt SSN assignment
when multiple cards are mailed to common addresses not previously determined
to be legitimate recipients (for example, charitable organizations) and/or when
parents claim to have had an improbably large number of children.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Agency continues its efforts to implement enhancements
in the Modernized Enumeration System (MES). The General Project Scope
Agreement (PSA) for this initiative was signed in November 2000. It divides
the effort into three separate releases. The PSA for Release 1, which will handle
the “too-many-children” issue, was signed December 2000 and scheduled for



                                                                         Appendices     •   page 79
              Semiannual Report to Congress                     April 1, 2003 — September 30, 2003



              implementation in March 2004. Release 2 will interrupt processing for “too-
              many-cards” to the same address. Release 3 will expand the capabilities of the
              use of the development worksheets implemented in Releases 1 and 2. Also, the
              MES investigate process will be revised to include all alert conditions on the same
              feedback/investigate message. Implementation dates for Releases 2 and 3 have
              not yet been determined.

              SSA is Pursuing Matching Agreements with New York and Other States
              Using Biometric Technologies (A-08-98-41007, 1/19/00)

              Recommendation: SSA should pursue a matching agreement with New York so
              that the Agency can use the results of the State’s biometric technologies to reduce
              and/or recover any improper benefit payments.

              Agency Comments: SSA agreed with the recommendation.

              Corrective Action: The Office of Disclosure Policy (ODP) developed a draft Computer
              Matching Privacy Protection Act agreement and sent it for component comments
              in June 2001. ODP met with OIG on January 24, 2002 to discuss the outstanding
              issues that need to be resolved before any match is undertaken. There is still a
              need for a component sponsor, a cost benefit analysis, and the development of
              a detailed workplan. A meeting was held in March 2002 with privacy experts to
              discuss the match and it was determined that a new submission for SSA’s Data
              Integrity Board will be completed with our assistance.

              Subsequent to the March 2002 meeting, SSA completed a new draft proposal and
              distributed the draft for component comment. In reply, there were several specific
              issues raised that needed to be addressed before the proposal is taken to the Data
              Integrity Board for consideration.

              Recommendation: SSA should initiate a pilot review to assess the cost efficiency
              of matching data with other States that have employed biometrics in their social
              service programs.

              Agency Response: SSA agreed with the recommendation.

              Corrective Action: The Claims Folders System of Records (SOR) requires an
              alteration to the “categories of records” section to include the photographs that will
              be taken during the pilot projects. The SOR Federal Register notice was published
              on April 1, 2003 and the 40-day comment period ended May 8, 2003. The handout
              for pilot participants that explains the pilot, why SSA is collecting this information
              and what SSA will do with the information, has been completed and was finalized
              with the dates of the pilots and other last minute details. The pilots involved three
              regions: Atlanta, Kansas City and New York. The temporary regulation, that makes
              the taking of photographs during the initial claims process for Title II and Title XVI
              disability and blindness benefits mandatory, was published on May 1, 2003 with
              an effective date of May 31, 2003. The Claimant Identification Pilot Projects were



page 80   •   Appendices
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



implemented June 1, 2003 and will run through November 2003. The results of
these 6-month pilot projects will be evaluated and presented to the Commissioner
for a decision for expansion.

Nonresponder Representative Payee Alerts for SSI Recipients
(A-09-96-62004, 9/23/99)

Recommendation: We recommended that SSA develop procedures for employees
to redirect benefit checks to field offices (and require representative payees to
provide the accounting forms before releasing the checks) in instances where other
attempts to obtain the required forms have been unsuccessful.

Agency Response: SSA agreed, in part. When a representative payee does
not respond or will not cooperate after repeated attempts to obtain an annual
accounting, the field office is required to consider whether a change of payee is
necessary. When the field office determines that a change of payee is necessary,
they develop for a successor payee. If a payee is not readily available, the
beneficiary is paid directly or placed in suspense status under certain limited
circumstances.

Corrective Action: In February 2000, as part of a package of improvements to
the payee monitoring process, SSA proposed legislation to redirect benefit checks
when representative payees fail to complete the required accounting form. This
change was included in legislation adopted by the Ways and Means Committee in
September 2000 that was not enacted into law. SSA has included this legislative
change as part of the FY 2003 legislative package that was sent to the OMB Budget
in October 2001. A similar provision has been introduced in the 108th Congress.
SSA has expressed its support for this provision and no Agency actions will be
targeted until the legislation has been approved.




                                                                         Appendices     •   page 81
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 82   •   Appendices
April 1, 2003 — September 30, 2003              SSA Office of the Inspector General



Appendix G

Significant Management Decisions With Which
the Inspector General Disagrees

Assessment of SSA’s Performance Measures (A-02-02-12050, 4/30/03)

Recommendation: We recommended that SSA reinstate its plans to establish
indicators to measure the efficiency of the enumeration process, such as the
personnel costs of processing SSN requests.

Agency Response: SSA indicated that it has established efficiency indicators for
selected workloads and the intent of GPRA was not to make Agencies develop
efficiency indicators or other outcome-based measures for every discrete
workload.

Recommendation: We recommended that SSA develop an indicator that measures
the overall accuracy of decisions for all DI payment outlays, which takes into
account initial DDS, as well as Office of Hearings and Appeals decisions.

Agency Response: SSA disagreed because due to the fundamental differences in
the decision making process at the initial claims and appeals levels, a combined
indicator would result in an inaccurate measure. The separate indicators provide
data that is more realistic and useful for managing the disability program.




                                                                       Appendices     •   page 83
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 84   •   Appendices
April 1, 2003 — September 30, 2003                SSA Office of the Inspector General



Appendix H

Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.

      Section                              Requirement                                  Pages


 Section 4(a)(2)       Review of legislation and regulations                             N/A


 Section 5(a)(1)       Significant problems, abuses, and deficiencies                   4-49


 Section 5(a)(2)       Recommendations with respect to significant
                                                                                        4-49
                       problems, abuses, and deficiencies

 Section 5(a)(3)       Recommendations described in previous Semiannual           Appendices
                       Reports on which corrective actions are incomplete           E&F

 Section 5(a)(4)       Matters referred to prospective authorities and the
                                                                                        4-49
                       prosecutions and convictions which have resulted

 Sections 5(a)(5) &
                       Summary of instances where information was refused                N/A
 Section 6(b)(2)


 Section 5(a)(6)       List of audits                                             Appendix B


 Section 5(a)(7)       Summary of particularly significant reports                      18-49


                       Table showing the total number of audit reports and
 Section 5(a)(8)                                                                  Appendix A
                       total dollar value of questioned costs

                       Table showing the total number of audit reports and
 Section 5(a)(9)                                                                  Appendix A
                       total dollar value of funds put to better use

                       Audit recommendations more than 6 months old for
 Section 5(a)(10)                                                                 Appendix A
                       which no management decision has been made

                       Significant management decisions that were revised
 Section 5(a)(11)                                                                        N/A
                       during the reporting period

                       Significant management decisions with which the
 Section 5(a)(12)                                                                 Appendix G
                       Inspector General disagrees




                                                                         Appendices      •   page 85
              Semiannual Report to Congress   April 1, 2003 — September 30, 2003




page 86   •   Appendices
April 1, 2003 — September 30, 2003              SSA Office of the Inspector General



Appendix I

Glossary


         Abbreviation                                  Definition

 ACT                             Assignment and Correspondence Tracking
 AeDib                           Accelerated Electronic Disability System
 ALJ                             Administrative Law Judge
 APP                             Annual Performance Plan
 BCIS                            Bureau of Citizenship and Immigration Services
 BOAN                            Beneficiary’s Own Account Number
 BPA                             Blanket Purchase Agreement
 BVS                             (State) Bureaus of Vital Statistics
 CBA                             Cost Benefit Analysis
 CDI                             Cooperative Disability Investigations
 CDR                             Continuing Disability Review
 CE                              Consultative Examination
 CEO                             Chief Executive Officer
 CFO Act                         Chief Financial Officers Act of 1990
 CIP                             Critical Infrastructure Protection
 CMP                             Civil Monetary Penalty
 CMS                             Center for Medicare and Medicaid Services
 COOP                            Continuity of Operations Plan
 DCFAM                           Office of Finance, Assessment and Management
 DCS                             Deputy Commissioner, Systems
 DDS                             (State) Disability Determination Services
 DI                              Disability Insurance
 DMF                             Death Master File
 DHS                             Department of Homeland Security
 DOJ                             Department of Justice
 eDib                            Electronic Disability
 ESF                             Earnings Suspense File
 EVS                             Enumeration Verification Service
 FBI                             Federal Bureau of Investigation
 FISMA                           Federal Information Security Management Act of 2002
 FO                              Field Office
 FY                              Fiscal Year
 GAO                             General Accounting Office
 GPRA                            Government Performance and Results Act


                                                                       Appendices     •   page 87
              Semiannual Report to Congress                    April 1, 2003 — September 30, 2003




   HHS                               Department of Health and Human Services
   ICE                               Bureau of Citizenship and Immigration Services (DHS)
   IG                                Inspector General
   INS                               Immigration and Naturalization Service
   IO                                Immediate Office of the Inspector General
   IRS                               Internal Revenue Service
   IT                                Information Technology
   MBR                               Master Beneficiary Record
   MEF                               Master Earnings File
   NAPHSIS                           Nat Assoc for Public Health Statistics & Information System
   NWALIEN                           Non-Work Alien
   OA                                Office of Audit
   OACT                              Office of the Actuary
   OASDI                             Old-Age, Survivors and Disability Insurance
   OCIG                              Office of the Counsel to the Inspector General
   OCIO                              Office of Chief Information Officer
   OCSE                              Office of Child Support and Enforcement
   ODISP                             Office of Disability and Income Security Programs
   ODP                               Office of Disclosure Policy
   OEO                               Office of Executive Operations
   OHA                               Office of Hearings and Appeals
   OI                                Office of Investigations
   OIG                               Office of the Inspector General
   OMB                               Office of Management and Budget
   P&A                               Planning and Analysis
   PDD                               Presidential Decision Directive
   P.L.                              Public Law
   PMA                               President’s Management Agenda
   POA&M                             Plan of Action and Milestones
   PR-DDP                            Puerto Rico Disability Determination Program
   PSA                               Project Scope Agreement
   RMT                               Records Management Team
   RPR                               Representative Payee Reports
   SSA                               Social Security Administration
   SSI                               Supplemental Security Income
   SSN                               Social Security Number
   Title II (Social Security Act)    Old-Age, Survivors and Disability Insurance
   Title XVI (Social Security Act)   Supplemental Security Income
   TY                                Tax Year
   USMS                              United States Marshals Service
   WC                                Workers Compensation


page 88   •   Appendices
           Social Security Administration
           Office of the Inspector General
        Semiannual Report to Congress
              April 1, 2003 thru September 30, 2003




                                                                                                  Inspector General
                                                                                                   James G. Huse, Jr.

                                                                                              Deputy Inspector General

                                                                      Chief of Staff
                                                                   Immediate Office of
                                                                                                      Jane E. Vezeris
       Fiscal Year 2002 Results of OIG Efforts                        the Inspector
                                                                        General
The work of more than 11,000 employees of Offices of Inspector      Richard A. Rohde
General across Government produced impressive results during
FY 2002. Thousands of audits, investigations, and other reviews
offered recommendations that promote economy, efficiency, and
effectiveness, as well as prevent and detect fraud, waste, and          Counsel          Assistant Inspector     Assistant Inspector       Assistant Inspector
abuse in Federal programs and operations. These results include:         to the                General                 General                 General for
                                                                   Inspector General           for Audit          for Investigations      Executive Operations
   Potential savings of nearly $72 billion.
                                                                     Kathy A. Buller     Steven L. Schaeffer     Patrick P. O’Carroll     Stephanie J. Palmer
   Nearly 10,700 successful criminal prosecutions.

   Suspensions or debarments of over 7,600 individuals or
    businesses.

   Almost 2,200 civil or personnel actions.
                                                                     Deputy Counsel         Deputy Assistant       Deputy Assistant      Deputy Assistant Inspector
   More than 5,700 indictments and criminal informations.           to the Inspector    Inspector General for   Inspector General for     General for Executive
                                                                          General               Audit                Investigations             Operations

   Over 234,000 complaints processed.                                Glenn E. Sklar         Gale S. Stone         Steve W. Mason            Robert L. Meekins

   More than 90 testimonies before Congress.

Working in concert, the Inspector General community has
strengthened the integrity of Government and the security of our
homeland.
 How to Report Fraud
The SSA OIG Fraud Hotline offers a means for you to
provide information on suspected fraud, waste, and
 abuse. If you know of current or potentially illegal
 or improper activities involving SSA programs or
personnel, we encourage you to contact the SSA OIG
                  Fraud Hotline.

   Call       1-800-269-0271
   Write      Social Security Administration
              Office of the Inspector General
              Attention: SSA Fraud Hotline
              P. O. Box 17768
              Baltimore, MD 21235
   Fax        410-597-0118
   Internet   www.socialsecurity.gov/oig

      To obtain additional copies of this report,
    visit our website www.socialsecurity.gov/oig
                or call 410-966-4020

                SSA Pub. No. 85-007
              Published November 2003
